<html>
<title> - NATIONAL WRITING PROJECT</title>
<body><pre>[Senate Hearing 107-47]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 107-47

                        NATIONAL WRITING PROJECT

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

               APRIL 17, 2001--BAY ST. LOUIS, MISSISSIPPI

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
72-751 PS                   WASHINGTON : 2001
_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402




                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
                                     MARY L. LANDRIEU, Louisiana
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

 Subcommittee on Departments of Labor, Health and Human Services, and 
                    Education, and Related Agencies

                 ARLEN SPECTER, Pennsylvania, Chairman
THAD COCHRAN, Mississippi            TOM HARKIN, Iowa
JUDD GREGG, New Hampshire            ERNEST F. HOLLINGS, South Carolina
LARRY CRAIG, Idaho                   DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          HARRY REID, Nevada
TED STEVENS, Alaska                  HERB KOHL, Wisconsin
MIKE DeWINE, Ohio                    PATTY MURRAY, Washington
                                     MARY L. LANDRIEU, Louisiana
                                     ROBERT C. BYRD, West Virginia
                                       (Ex officio)
                           Professional Staff
                            Bettilou Taylor
                             Mary Dietrich
                              Jim Sourwine
                        Ellen Murray (Minority)

                         Administrative Support
                             Correy Diviney
                       Carole Geagley (Minority)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening statement of Senator Thad Cochran........................     1
Statement of Dr. Richard Sterling, executive director, National 
  Writing Project, Berkeley, CA..................................     2
    Prepared statement...........................................     5
Statement of Dr. Sherry Swain, director, Mississippi Writing and 
  Thinking Project, Starkville, MS...............................     6
    Prepared statement...........................................     8
Statement of Dr. Huntley Biggs, executive director, Mississippi 
  Power Foundation...............................................    10
    Prepared statement...........................................    13
Statement of Kim Myrick Stasny, Ph.D., superintendent, Bay St. 
  Louis-Waveland School District.................................    20
    Prepared statement...........................................    22
Statement of Stacey Gorum, teacher, North Bay Elementary School..    23
Statement of Sharon McKenna Ladner, curriculum instruction 
  specialist, Pascagoua School District..........................    25
Statement of Lisa Eveleigh, parent, North Elementary, Bay St. 
  Louis, MS......................................................    27
    Prepared statement...........................................    28
National Writing Project Evaluation, Student Writing Achievement, 
  Year One Results...............................................    32
National Writing Project Annual Report 2000......................    34
Letter from Amy Tuck, Lieutenant Governor, State of Mississippi, 
  to Senator Thad Cochran........................................    34
Prepared statement of State Senator Alice V. Harden..............    34
Prepared statement of Kim Patterson, co-director, Mississippi 
  State University Writing/Thinking Project......................    35
Prepared statement of Linda Buchanan.............................    37
Prepared statement of Jeanne R. Ezell............................    38
Prepared statement of John W. Dorroh.............................    40
Prepared statement of Katherine Dale Pohl, parent................    41
  

 
                        NATIONAL WRITING PROJECT

                              ----------                              


                        TUESDAY, APRIL 17, 2001

                           U.S. Senate,    
    Subcommittee on Labor, Health and Human
     Services, and Education, and Related Agencies,
                               Committee on Appropriations,
                                                 Bay St. Louis, MS.
    The subcommittee met at 2 p.m., in the library of Bay-
Waveland Middle School, Hon. Thad Cochran presiding.
    Present: Senator Thad Cochran.


               OPENING STATEMENT OF SENATOR THAD COCHRAN


    Senator Cochran. Good afternoon. It is my pleasure to 
convene and welcome you to this hearing of the U.S. Senate 
Committee on Appropriations. The Subcommittee on Labor, Health 
and Human Services, Education and Related Agencies is chaired 
by Senator Arlen Specter of Pennsylvania, who has authorized me 
to Chair this hearing today in Bay St. Louis.
    I first want to thank Dr. Kim Stasny, superintendent of 
Bay-Waveland School District, and Mr. Chuck Benigno, assistant 
superintendent, who have provided valuable assistance to us in 
preparation for the hearing and for allowing us to use the Bay-
Waveland Middle School as the site for our hearing today. Our 
subcommittee will review at this hearing the success and 
importance of federally-funded teacher training programs, 
specifically the National Writing Project, the Mississippi 
Writing and Thinking Project and the Live Oak Writing Project.
    Writing is essential for success in school and in the 
workplace. In 1990, I introduced legislation to make the 
National Writing Project a federally funded program. In 1991, 
$2 million was approved by Congress in appropriations for this 
program. Funding this year is $10 million. I am hopeful that my 
bill, which was recently introduced to reauthorize the program, 
will be included in the education legislation the Senate will 
consider next week.
    The National Writing Project has 167 sites in 49 States, 
the District of Columbia and Puerto Rico. There are eight sites 
in Mississippi. The Live Oak Writing Project is the newest 
site, based at the Gulf Coast campus of the University of 
Southern Mississippi in Long Beach. This program raises $6 in 
local funding for every $1 in Federal funding it receives. It 
also has become a model program for improving teaching in other 
academic fields such as math, science and reading. Last year, 
the Writing Project served 1 of every 34 teachers in our 
country. It is the national as well as the local effort to 
reinvigorate the teaching profession and improve students' 
literacy skills.
    Expert teachers at each of the National Writing Project 
sites conduct a broad array of professional development 
programs to improve writing and learning in classrooms in all 
grade levels, kindergarten through university. Writing project 
teachers are an inspiration and resource for other teachers.
    The National Writing Project was already a success when I 
learned about it from Dr. A.D. Seale, who was a professor at 
Mississippi State University at the time and in the 
administration of that university. His daughter, Sherry Swain, 
had told him that the writing project training she received as 
a first grade teacher was the best she had ever had. That was 
the first I ever had heard about the National Writing Project.
    Other successful examples I later heard included the fact 
that the writing project sites in Mississippi partnerships 
supported the Federal Job Training Partnership Act. 1,500 JTPA 
students, after a single 6-week summer school course conducted 
by writing project teachers, advanced nearly 2 years in reading 
and mathematics.
    In 1996, Mississippi State School Superintendent Dr. Thomas 
Burnham gave credit to the Mississippi Writing and Thinking 
Project for the rise in standardized test scores in 
Mississippi. This kind of success has continued, adding proof 
of the effectiveness of the Writing Project.
    Last fall, the Academy for Educational Development 
completed a study which shows the improvement of student 
writing achievement as a result of their teachers' involvement 
in the National Writing Project. The study evaluated the 
writing skills of 583 third and fourth grade students. The 
executive summary of the study says, ``Overall, these findings 
show that students in classrooms taught by NWP teachers made 
significant progress over the course of the school year in 
rhetorical effectiveness and applying writing convictions and 
persuasive writing. By the end of the school year, a majority 
of students in the study reached adequate or strong achievement 
in rhetorical effectiveness and demonstrated general or clear 
control over the convictions of usage, mechanics and 
spelling.''
    We are going to have to take a special course in learning 
how to understand the executive summary written by these 
experts, but I think what they are saying is the program works.
    This hearing provides the U.S. Senate with an opportunity 
to learn more about the National Writing Project and how it is 
working in schools across our State and Nation. I am looking 
forward to hearing the testimony from our distinguished 
witnesses.
STATEMENT OF DR. RICHARD STERLING, EXECUTIVE DIRECTOR, 
            NATIONAL WRITING PROJECT, BERKELEY, CA
    Senator Cochran. Our first panel today includes Dr. Richard 
Sterling, who is executive director of the National Writing 
Project, he is at the University of California in Berkeley; Dr. 
Sherry Swain, whom I mentioned in my opening statement, who is 
director of the Mississippi Writing and Thinking Project in 
Starkville; and Dr. Huntley Biggs, who is at the Mississippi 
Power Foundation, and provides funding--the foundation does, 
for local projects in Gulfport. Let me welcome our first panel, 
and we have written statements which have been prepared for our 
hearing record, and they will be included in full in the 
record. And I would encourage you to make such comments or read 
from the statements as you think would be helpful to our 
hearing. Dr. Sterling, let us start with you.
    Dr. Sterling. Thank you very much and thank you, Senator 
Cochran, for the opportunity to address this subcommittee. In 
your opening statement, you already mentioned some of the 
things I was going to say, so I will cut some of that. One of 
the things that we are thrilled about is that your support of 
the National Writing Project has had an enormous impact, not 
just within the State of Mississippi, but far beyond.
    The basic mission of the Writing Project is to improve the 
teaching of writing and learning in the nation's schools. The 
National Writing Project is truly one of the nation's 
educational achievement success stories. It began in 1974, with 
one site, at the University of California, Berkeley, and is 
now, as you said earlier, at 167 sites across the country in 49 
States. Everyone always wants to know what State is missing, 
and that is New Hampshire, but we have an inquiry from New 
Hampshire, and we are hopeful that they will have the writing 
project next year, and that will make all 50.
    Each site operates from a university campus in 
collaboration with school districts in the immediate area 
surrounding them. Usually, the projects are directed by one 
university faculty member and one school teacher from the K-12 
system. The leverage that they get is, in part, because each 
project is a kind of an entrepreneurial effort. It has to prove 
its success, and it has to sell its wares, so to speak, to the 
surrounding district. On average, as you said, $6 are raised 
for every dollar in the project. So if a project is not doing 
its work well, it does not survive. It has a very--in 
Mississippi, you will see the enormous success of the project, 
because they are almost overwhelmed with the amount of work 
they are being asked to do, and you will hear more about that 
later.
    The Writing Project operates on a teachers teaching 
teachers model. We take the best teachers we can find, 
successful writing teachers, they attend invitational summer 
institutes at their local writing project sites, they conduct 
research, and they develop their own writing skills. These same 
teachers then share what they have learned with other teachers, 
providing professional development workshops in their own 
schools and communities. The results are remarkable. You have 
heard about this recent study with AED. That study was 
conducted in Mississippi, Oklahoma, Pennsylvania, and 
California. Next year, we are extending the project to Kentucky 
and two or three other States that have not yet been chosen. 
The evaluation looks very, very promising.
    I have to tell you that in Mississippi, the Writing Project 
here has gone far beyond just things like that. There is a 
State network in Mississippi that is supported by the 
legislature, and it has become a model for other States. We are 
asking Dr. Swain to actually help us develop this model for 
other States across the country. So she has been working with 
small groups of writing projects in other States to help 
develop the network that will serve teachers in their States.
    The Writing Project's teachers teaching teachers approach 
has become a national model, and the U.S. Department of 
Education has asked us to think about how this project might 
work in mathematics, in social sciences and in reading. And so 
we are beginning to look beyond just writing. Now, that, of 
course, has been true all along. Writing Project teachers teach 
reading, as well.
    I think the need for writing is also something that we 
should bear in mind. Anyone looking for a job today can tell 
you, and probably many of you here in this room, that writing 
has become an essential skill in today's professional world. If 
you visit any internet site posting job descriptions, you 
constantly see phrases like strong writing skills required or 
must be able to think and write clearly or excellent writing 
and communication skills a must. Writing is one of the most 
pivotal skills to success in the workplace today, and yet, 
educators and academics commonly refer to it as the forgotten 
third R. We have heard enormous amounts about reading from the 
new Administration, but almost nothing about writing. Writing 
is a focal point of every State and school district's 
educational standard, and yet, the National Writing Project is 
the only national program that addresses the writing 
proficiencies by training teachers to teach writing.
    Not only are National Writing Project sites proven to 
improve student achievement, they offer the ongoing 
professional support and sense of community that keeps teachers 
in education. This is a really important point. As you may 
know, we are losing about 50 percent of our teachers within 5 
years of them entering the profession. We are collecting data 
to show that teachers who are in writing projects are much more 
likely to stay. The initial data looks very promising at around 
70 percent, but we have not got confirmation of that yet. The 
national surveys indicate, we have another evaluation by In-
Class Research Associates that indicates that over 95 percent 
of teachers who participate in our programs call the Writing 
Project the best in-service program they ever participated in. 
With studies showing that America will need to hire over 2 
million teachers in the next 10 years, including 700,000 in 
high-poverty urban and rural districts, a minimum Federal 
investment in this program helps keep teachers in the 
profession and seems like a wise choice.


                           PREPARED STATEMENT


    The National Writing Project is highly successful, cost 
effective and serves two important functions: improving student 
writing and thinking, and providing teachers with the 
professional support they need. Yet, the current ESEA 
reauthorization bill does not include funding for the National 
Writing Project, and the President's bill and request to 
Congress does not, either. I cannot overemphasize the 
importance of good writing and clear thinking. Today more than 
ever, these skills are vital for young people, they are vital 
for our changing economy, and they are vital to the future of 
democracy. I urge you to continue the support of the National 
Writing Project. Thank you.
    [The statement follows:]
                 Prepared Statement of Richard Sterling
    Thank you very much for this opportunity to present testimony on 
behalf of the National Writing Project (NWP) to the Senate 
Appropriations Subcommittee on Labor, Health and Human Services, and 
Education. The National Writing Project is a highly successful, cost-
effective program to improve the teaching of writing in the nation's 
schools. However, the current ESEA bill does not include the 
reauthorization of the National Writing Project.
    Despite Washington's present focus on the importance of education, 
a lack of reading and writing skills continue to hinder individual and 
corporate success in the United States today.
  --The U.S. Department of Labor estimates that poor reading and 
        writing skills cost U.S. businesses about $225 billion a year 
        in lost productivity. In a survey of more than 300 business 
        executives, 71 percent reported that basic written 
        communication training was critical to meeting changing 
        workplace demands, yet only 26 percent of companies offered 
        this kind of training (source: ``Fact Sheet on Workforce 
        Literacy,'' National Institute for Literacy).
  --In a 1995 Opinion Research Corporation survey of Fortune 1000 CEOs, 
        82 percent of those surveyed said that state and local school 
        systems have primary responsibility to boost workers' literacy 
        rates (source: ``Illiteracy at Work,'' Shelly Reese, American 
        Demographics, 4/96).
  --Being able to write effectively and clearly is an essential 
        component of workplace success today, yet educators typically 
        refer to writing as the ``forgotten third R.'' Fifty-four 
        percent of workers report that they frequently write reports on 
        the job (source: ``Literacy Practices in Today's Workplace,'' 
        Larry Mikulecky, for the National Institute for Literacy). 
        Visit any Internet site posting job descriptions and you 
        constantly encounter phrases like ``strong writing skills 
        required'' or ``must have excellent writing and communication 
        skills.''
  --In 1995, almost all public 2-year institutions had to offer 
        remedial writing courses, while about three-quarters of public 
        4-year institutions offered remedial writing courses. About 
        half of all private 4-year institutions offered remedial 
        writing courses. Eighty-five percent of high minority 
        enrollment colleges offered remedial writing (source: U.S. 
        Department of Education, National Center for Education 
        Statistics, Remedial Education at Higher Education Institutions 
        in Fall 1995).
    Writing is a focal point of every state and school district's 
education standards. Yet the National Writing Project is the only 
national program that seeks to improve the teaching of writing through 
professional development for teachers, kindergarten through college. 
The project serves over 100,000 teachers annually through its network 
of 167 sites in 49 states, Washington, DC, and Puerto Rico. Sites 
operate from university campuses and collaborate with surrounding 
schools and districts. Local sites raise on average $6 in local funding 
for every $1 they receive from the federal government, making the 
National Writing Project one of the most cost-effective educational 
programs in the country.
    The National Writing Project operates on a teachers-teaching-
teachers model. Successful writing teachers attend invitational summer 
institutes at their local writing project sites to share best 
practices, conduct research and develop their own writing skills. These 
same teachers then share what they have learned with other teachers, 
providing professional development workshops in their own schools and 
communities.
    If student achievement and success are to be the nation's focus, 
the National Writing Project should be at the top of every legislator's 
priority list. The results are outstanding.
    Third and fourth grade students of writing project teachers in 
Mississippi, Oklahoma, Pennsylvania, and California, for example, 
showed significant improvement in writing achievement in a 1999-2000 
Academy for Educational Development study. The evaluation of 583 
students of writing project teachers found 96 percent of fourth graders 
and 85 percent of third graders reaching adequate or strong achievement 
in the demands of persuasive writing by their second writing assessment 
in spring 2000.
    Students participating in the four-year Pathway project conducted 
by the UC Irvine Writing Project in the Santa Ana Unified School 
District showed significantly higher gains in writing achievement than 
their peers who did not participate in the project. Pathway students 
had fewer absences and higher grade point averages than their peers. 
100 percent of Pathway students graduated from high school and more 
than 90 percent went on to post-secondary education. Santa Ana 
Unified's students are 68.6 percent limited English proficient, 98.5 
percent ethnic minority, with 74.4 percent qualifying for free or 
reduced lunch.
    The writing project's ``teachers-teaching-teachers'' approach has 
become a national model, used to improve teaching in other academic 
fields like math, science, and reading, and is recognized by the U.S. 
Dept. of Education as an important part of national education policy.
    Not only are National Writing Project sites proven to improve 
student achievement, they offer the ongoing professional support and 
sense of community that keep teachers in education. Over 95 percent of 
teachers who participate in our program call writing project training 
the best inservice they have ever had. (source: ``Client Satisfaction 
Survey,'' Inverness Research Associates, 2000). With studies showing 
America will need to hire over two million teachers in the next decade, 
including 700,000 in high-poverty urban and rural districts, a minimal 
federal investment in a program that helps keep teachers in the 
profession seems a wise choice.
    The National Writing Project is a highly successful, cost-effective 
program serving two extremely important functions: improving student 
writing and learning and providing teachers with the professional 
support needed to keep them in the field. I urge the Senate to support 
the reauthorization of the National Writing Project in the current ESEA 
bill. Thank you.

    Senator Cochran. Thank you very much, Dr. Sterling. Now we 
will hear from Dr. Sherry Swain.
STATEMENT OF DR. SHERRY SWAIN, DIRECTOR, MISSISSIPPI 
            WRITING AND THINKING PROJECT, STARKVILLE, 
            MS
    Dr. Swain. Thank you. And I want to thank you, Senator 
Cochran, for bringing us together in this beautiful place to 
talk about the work of the National Writing Project. As 
director of the Mississippi Writing/Thinking Institute, which 
is our State network of eight National Writing Project sites, I 
am so proud of the impact that the National Writing Project has 
had on teachers and schools and students in our State, and I am 
also proud of the impact and the voice of Mississippi teachers 
that is played out within the national scene because of the 
National Writing Project.
    The first NWP program for teachers in Mississippi was 
offered at Mississippi State University in 1985. We now have 
seven additional university sites at the University of 
Mississippi, the University of Southern Mississippi, Delta 
State University, Alcorn State University, Mississippi Valley 
State University, Jackson State University, and our new site on 
the Gulf Coast campus of USM.
    Mississippi receives almost half a million dollars annually 
to work with our teachers, and that is used for stipends for 
teachers to participate in summer institutes, it is used for 
leadership development activities, there are conferences which 
showcase Mississippi classrooms, there are classroom research 
opportunities, teacher exchanges, special grants to address the 
needs of rural teachers and urban teachers, professional 
writing and publishing opportunities and opportunities to 
participate in special projects. I want to mention one of those 
right now called Rural Voices. Bay St. Louis is one of the 
participants in that.
    At this very moment, teachers and students across this 
State are compiling their writing about the places where they 
have lived and sending it in for a collaborative effort between 
the National Writing Project and National Public Radio. These 
writings will be read by the authors on a CD that will be 
distributed nationally, so that the nation will get to hear 
what our students and teachers think about the places where 
they live. And there are some wonderful descriptions of the 
beaches at Bay St. Louis and a lot of tunnels, as the children 
call them when they cross over the highways. The Mississippi 
local sites and the statewide network, the institute, in turn, 
serve schools and teachers and districts within our State.
    During fiscal year 2000, here are some of the things that 
happened here in Mississippi: There were 8 invitational summer 
institutes, 192 long-term programs for teachers. We served over 
4,000 teachers in Mississippi, as we do every year. That 
translates into service to one out of every seven teachers in 
Mississippi. The average of those teachers, most of those 
teachers participate in 27.5 hours of professional development. 
So there is evidence there that we are not about one-shot, 
short-term professional development, but long-term professional 
development that makes a difference.
    I want to talk about three studies that show the results of 
our quality programs. One of them I can pass talking about, 
Senator, because you already described it so beautifully, the 
JTPA project, which is found on page 5 in the profiles book, 
which is in the press packet. There is another study on page 10 
of that book that shows that the accreditation levels and 
student achievement levels in both West Point School District 
and Kemper County rose after intensive participation with the 
Writing Project. Another statistic that we are quite proud of 
is that Mississippi is among the top five States in the nation 
in the number of national board certified teachers. Our own 
research shows that here in Mississippi when National Writing 
Project teachers attempt to pass the national boards, they pass 
at a rate of 77 percent. That is opposed to a rate of 47 
percent for teachers who have not had National Writing Project 
experience.
    One of the ways we serve in our State is to develop 
partnerships with other agencies who are also charged with 
improving teaching and learning in our State. We've done a 
great deal of work with the Mississippi Department of 
Education. In 1993, the Writing Project in Mississippi 
introduced teachers across our State to the idea of performance 
assessment. That was a very successful program. In 1996, we 
developed the reading and the language arts framework, which 
was presented across our State to help teachers deal with the 
new language arts and reading standards.
    The reading and the language arts program was presented to 
all the first grade teachers in the six school districts that 
were a part of the Mississippi reading sufficiency report 
between the pre- and post-test dates. So we feel like we can 
take a little bit of the credit for the success mentioned in 
that report. Currently, we are presenting a program called 
Score, which helps secondary content area teachers learn to 
teach reading within the context of their content areas. Our 
partnership with PREPS, which is a consortium of researchers 
that evaluates public schools, led to an integrative assessment 
program and subject area program that addressed the needs of 
teachers and students in these days of high-stakes exit exams. 
We are currently working on Project Think Tank with PREPS, 
which will provide on-line support for teachers and the 
improvement of writing for their students. Our partnerships 
with schools are characterized by multi-year work, work with 
various groups within the school and work that is tailored to 
the specific needs of the school.
    We are proud that Bay-Waveland is one of our partnership 
schools, and we will hear more about what is going on there 
later. We also look forward to working with them in our writing 
improvement plan next year. I just want to say for just a 
second here how proud we are of this Bay-Waveland School 
District. They are on the cutting edge of classroom 
instruction. On assessment, they allow their students to be an 
integral part of the assessment process. The students keep 
their own portfolios, they reflect on their own learning, they 
set goals for their own learning, and then there is a structure 
in place where they share that with their parents. I think that 
they deserve a lot of credit for that, and I certainly felt 
that we have been honored to be able to come here and work with 
this district.

                           PREPARED STATEMENT

    Beyond that, I just want to say it is also an honor to be 
even involved with the National Writing Project. And as a 
representative of all the teacher consultants across the 
nation, I just want to say thank you for the support, and thank 
you especially from Mississippi teachers, because without this 
National Writing Project in our State, our forum for getting 
our message outside the boundaries of our State would be lost, 
and our voices would not be nearly so strong. Thank you.
    [The statement follows:]
                   Prepared Statement of Sherry Swain
    As Director of the Mississippi Writing/Thinking Institute (MWTI), 
our state network of National Writing Project (NWP) sites, I am proud 
of the impact of the National Writing Project on teachers, students, 
and schools in Mississippi. Our first NWP program for teachers was 
offered in 1985 at Mississippi State University. Since that time, we 
have established the state network known as the Mississippi Writing/
Thinking Institute, also housed at Mississippi State University. The 
Institute now includes eight university-based NWP sites that serve 
public schools. Those sites are located at Mississippi State 
University, the University of Mississippi, the University of Southern 
Mississippi, Delta State University, Alcorn State University, 
Mississippi Valley State University, Jackson State University. Our 
newest site, founded this year, is located on the Gulf Park Campus of 
the University of Southern Mississippi.
    Mississippi benefits directly from the $10 million federal 
appropriation to the NWP. Consider the benefits to Mississippi teachers 
in just one year. The NWP direct grants to Mississippi's university-
based sites total more than $200,000. The bulk of these funds go into 
stipends for Mississippi teachers to participate in an intensive summer 
program on the teaching of writing. Additional funds of approximately 
$200,000 allow Mississippi teachers to participate in leadership 
development activities, conferences which showcase Mississippi 
classrooms, classroom research opportunities, teacher exchanges, 
special grants for addressing needs of rural and urban teachers, 
professional writing and publishing opportunities, and opportunities to 
participate in special projects-some of which are described in this 
document.
    The National Writing Project in Mississippi, the local sites as 
well as the Mississippi Writing/Thinking Institute, in turn, serve 
teachers, students, schools, and school districts within the state. 
During the 1999-2000 school year, service included the following:
  --Eight Invitational Summer Institutes at eight university sites 
        afforded 6 hours of graduate credit to master teachers as they 
        learned how to become better teachers of writing, to use 
        writing as a learning tool for all subject areas, and to become 
        teachers of teachers.
  --One hundred ninety-two (192) programs for teachers were conducted 
        throughout the state, indicating that the NWP sites within 
        Mississippi have the capacity to serve every one of the 150 
        school districts in the state with at least one year-long 
        professional development program.
  --Approximately 110,000 contact hours of professional development 
        were provided to teachers in Mississippi public schools. The 
        average teacher participated in 27.5 contact hours, evidence 
        that teachers involved in our programs receive intensive, high-
        quality professional development over time.
  --Over 4000 Mississippi teachers participated in NWP professional 
        development programs. In other words, one out of every seven 
        Mississippi teachers directly benefited from National Writing 
        Project programs in a single year.
    The National Writing Project in Mississippi is a cost-effective 
program. The cost per contact hour in federal dollars in Mississippi in 
fiscal year 2000 was $1.06. For every federal dollar awarded to NWP 
sites in Mississippi, another $7.70 was leveraged from other sources, 
including the state, school districts, and private foundations. The 
cost per contact hour in state dollars was $3.
    The National Writing Project in Mississippi offers quality programs 
that make a difference in teaching and learning:
  --In a study of Mississippi at-risk high school students, their 
        teachers were provided an eight-week curriculum developed by 
        the MWTI along with intensive professional development on 
        teaching strategies. Results showed that the students involved 
        in the summer program gained 1.9 years in mathematics 
        achievement and 1.7 years in reading achievement over the 
        eight-week period. (Profiles of the National Writing Project, 
        p. 5)
  --Research shows that the NWP in Mississippi has a positive effect on 
        accreditation. Studies conducted in West Point and in Kemper 
        County show that student achievement and district accreditation 
        rose after intensive work with the Mississippi network of NWP 
        sites. (Profiles of the National Writing Project, p. 10)
  --Of the Mississippi teachers applying for National Board 
        Certification, those who have participated in NWP intensive 
        Summer Institutes pass at the rate of 77 percent. Those 
        participating in our professional development programs pass at 
        a rate of 59 percent. Those not participating in NWP programs 
        pass at a rate of 47 percent--a 30-point difference for NWP 
        teachers.
    The National Writing Project in Mississippi sponsors research 
opportunities and special projects for teachers and students:
  --The MWTI sites at Alcorn State University and at Mississippi State 
        University were part of a three-year Project Outreach 
        initiative, sponsored by the NWP and the DeWitt Wallace 
        Foundation. The project focused on equal access to NWP 
        programs.
  --A team of Mississippi third and fourth-grade teachers is currently 
        involved in a three-year study with the National Writing 
        Project and the Academy for Educational Development. Students 
        write to prompts; their writing is then scored for rhetorical 
        effectiveness and conventions. Teachers involved in the study 
        submit lesson plans to be scored for construction of knowledge, 
        content area concepts, and connections to students' lives.
  --Mississippi teachers, including a team from the Bay/Waveland School 
        District, have presented at three international Global 
        Conferences on Language and Learning, held in Oxford, England, 
        Bordeaux, France, and Utrecht, Holland.
  --Mississippi teachers and students are being featured in the second 
        edition of Rural Voices Country Schools, a project of the NWP 
        and National Public Radio (NPR). This collection of teachers 
        and students reading their writing about the places they live 
        will be aired nationally over NPR stations.
    The Mississippi Writing/Thinking Institute enters into partnerships 
with other agencies seeking to improve teaching and learning. The MWTI 
has a long history of service to the Mississippi Department of 
Education, beginning with the 1987 JTPA program mentioned above which 
resulted in dramatic increases in reading and math achievement for at-
risk high school students. Other programs developed and conducted for 
the department include the following:
  --In 1993, the MWTI prepared teachers across the state for the first 
        performance assessments that focused on national standards in 
        the Mississippi Assessment System Professional Development.
  --In 1995, the MWTI developed and led two additional programs for 
        groups of K-3, 4-8, and 9-12 teachers of language arts and 
        reading: Introducing the Language Arts Framework and Building 
        Communities of Readers.
  --In 1996, Reading and the Language Arts Framework was designed to 
        help teachers make the transition from skills-based instruction 
        to student-centered instruction. The program was presented to 
        first-grade teachers in all six districts featured in the 
        Reading Sufficiency Report between the pre and post test dates.
  --Science With Integrated Math Methods Encouraging Reading was 
        developed to assist elementary teachers in meeting the math and 
        science standards using hands-on experiences.
  --SCORE, Secondary Content Opening to Reading Excellence, developed 
        in 1998, helps teams of content area teachers and their 
        administrators understand how reading skills can be integrated 
        into secondary science, social studies, and mathematics 
        classrooms.
    Partnership with the PREPS Consortium of school districts has 
resulted in three research-based programs to meet the needs of school 
districts:
  --Integrated Assessment for teachers of grades K-9 focuses on the 
        ideal connections between good teaching and good assessments.
  --Subject Area Programs for Biology, Algebra I, American History, and 
        English II provide teachers with curriculum units and teaching 
        strategies to help students achieve on the high stakes high 
        school exit exams.
  --Project Think Tank is now being developed to provide teachers with 
        on-line support as they learn to use writing prompts and 
        scoring guides with their students.
    Partnerships with schools are characterized by multi-year work, 
programs for various groups within the school, and work that is 
tailored to fit the specific needs of the school. The Mississippi 
Writing/Thinking Institute and Bay/Waveland partnership began a number 
of years ago with teachers participating in Invitational Summer 
Programs and in our Portfolios for Assessment and Learning Program. 
Teams of teachers from Bay/Waveland have also participated in our 
WONDER retreats for K-2 teachers and have presented their portfolio 
research at national, regional, and international conferences. For the 
past two years, a team of Teacher Consultants has spent a week each 
month working side-by-side with teachers and students in three 
elementary schools. In all-day interactive workshops, teachers focus on 
helping students to reflect on their own learning while they reflect on 
their own teaching practices. Other components of the work include 
demonstration lessons in classrooms, study groups, one-on-one 
conferences with teachers, and parent workshops. We look forward to 
next year when Bay/Waveland will be one of the pilot sites for our new 
K-12 Writing Improvement Plan.
    We are proud of the accomplishments of the Bay/Waveland education 
community. They have developed a teaching/learning/reporting process 
that honors the individual child and at the same time, insures that 
national standards are being met. This district offers multi-age 
classrooms, a portfolio process that involves parents and insures that 
students learn to evaluate and set goals for their own learning, and an 
innovative reporting process that highlights the professional expertise 
of teachers while giving parents and students bountiful information 
about what each child knows and is able to do.
                               conclusion
    It is my exquisite good fortune to be associated with the only 
national effort to improve student writing-The National Writing 
Project, with informed school administrators such as Kim Stasny and 
Debbie Cox of the Bay/Waveland School District, and with Mississippi's 
wonderfully diverse teachers and students. As a representative of the 
Teacher Consultants of the National Writing Project, I extend our 
deepest gratitude to Senator Cochran and to all members of the 
Appropriations Subcommittee on Labor, Health, and Human Services and 
Education for this opportunity to inform the United States Congress 
about our work in the nation's schools.

    Senator Cochran. Thank you very much, Dr. Swain. Dr. 
Huntley Biggs.
STATEMENT OF DR. HUNTLEY BIGGS, EXECUTIVE DIRECTOR, 
            MISSISSIPPI POWER FOUNDATION
    Dr. Biggs. Thank you, Senator. As I was introduced, I am 
the executive director of Mississippi Power Education 
Foundation, and we have been in the business of providing 
grants to support education in southeast Mississippi since 
1984. And over a period since our inception, we have made 
grants totaling about $2.7 million.
    We are here today to talk about the National Writing 
Project and the Mississippi Writing/Thinking Institute. Today, 
businesses face an increasingly difficult challenge of hiring 
workers that meet even minimal employment criteria. The 
Southern Company, where I work, employs about 25,000 people 
across the United States. In our service system, we are finding 
that only about 25 to 30 percent of our applicants for hourly 
jobs can pass an initial employment screening test. That test 
is designed to evaluate the individual's thinking ability 
rather than technical skills, and an eighth grade student, with 
minimal reading and mathematical ability, should be able to 
pass that test. However, unfortunately, 70 to 75 percent 
cannot.
    It is also becoming very difficult to recruit professional 
level people, as well, and this is because there are a 
declining number of people enrolled in demanding academic 
fields such as engineering and computer sciences. Our high 
schools are just not producing enough people who are qualified 
to pursue degrees in these fields, and yet, we as business 
people must meet the demands of global competition, which 
requires productive employees who can function effectively in 
the information age. Unfortunately, we are not getting them. 
The experience of the Southern Company, I feel, is no different 
than that for other employers.
    Well, that is the bad news, but there is good news. 
Business needs employees who are literate in language arts and 
math, who can think and solve problems and who can behave 
ethically. Writing is a basic literacy skill, and there is also 
a clear connection between writing and thinking. When writing 
is emphasized in school, students will develop their abilities 
to think, which is an essential workplace skill. That is why we 
believe that the National Writing Project and the Mississippi 
Writing/Thinking Institute are so important to creating a 
qualified and productive workforce.
    Over the past several years, emphasis has been placed on 
raising academic standards for student achievement. Research 
shows that teachers can make the critical difference in whether 
or not a student succeeds. Across the nation today, there is an 
increasing emphasis on the quality of teaching. Earlier this 
year, for example, the National Alliance for Business launched 
a year-long campaign calling for improvements in teaching 
quality. A centerpiece of its recommendations is a new model of 
teacher preparation and professional development. And recently, 
the Mississippi Public Education Forum formed a task force to 
address the issues relating to teaching quality in our State.
    I bring this to your attention because the professional 
development delivered by the Mississippi Writing/Thinking 
Institute is a model of what professional development should 
be. The training courses it offers are not one-shot sit-and-get 
sessions offered by experts who are far removed from the 
classroom. Rather, the instruction takes place over time, 
allows for follow-up and an opportunity to try out new 
practices. This helps insure that what is learned during the 
training is implemented in the classroom, and that is in sharp 
contrast to most staff development, not here in Bay-Waveland, 
however, but in other places which is focused on generating 
hours of credit rather than on improving classroom teaching.
    The Writing Project instructors are teacher consultants or 
classroom teachers. They know by their own experience what 
works and what does not. Consequently, the training programs 
offered by the Mississippi Writing/Thinking Institute are 
highly credible in the eyes of teachers. By taking on the role 
of consultant, the teachers not only develop other people but 
also develop themselves professionally and personally. They 
have the opportunity to interact with other teachers and share 
best practices. They can compare notes and learn new ways of 
doing things in their classrooms. Time and again I hear that 
teachers who have served as teacher consultants find themselves 
to be better teachers themselves.
    The National Writing Project model emphasizes reflective 
writing and portfolios. Teachers who have been through the 
Writing and Thinking Institute programs are well prepared to 
take the national board certification process. Mississippi 
boasts 755 board certified teachers; many of these master 
teachers are products of the Mississippi Writing Project.
    We at Mississippi Power Education Foundation commend those 
who have seen the importance of writing and have taken steps to 
infuse writing throughout the curriculum. Thanks to Senator 
Thad Cochran, the Writing Project has become federally funded, 
and we want to thank you personally, sir, for your efforts in 
the past and encourage you to continue to be the national 
champion for writing in our schools throughout the country.
    I also want to acknowledge the funding provided to 
Mississippi Writing and Thinking Institute by the Mississippi 
Legislature through its appropriations process. These are great 
investments in education and need to be continued, if not 
increased.
    The Mississippi Power Education Board of Directors 
recognizes the critical importance of infusing writing 
throughout the K-12 curriculum. And over the past several 
years, we have awarded a number of grants to support writing 
initiatives that are connected with the Mississippi Writing and 
Thinking Institute. This investment totals about $50,000. We 
help to fund summer institutes to train teacher consultants. 
Several school districts have received grants from our 
foundation to provide professional development for teachers on 
how to teach writing across the curriculum. We have found these 
programs to be of excellent quality and extremely cost 
effective, and that cost effectiveness is due in part to the 
public funding that has been received from the Federal and 
State levels.
    We have also supported the Writing and Thinking Institute's 
statewide strategic plan for writing improvements by raising 
awareness of it among potential private donors. We are among 
other private foundations such as the Phil Hardon Foundation 
and the Weyerhaeuser Company Foundation, who also have provided 
donations to support writing initiatives in schools throughout 
Mississippi under the auspices of the Writing and Thinking 
Institute.

                           PREPARED STATEMENT

    Much of the credit, of course, goes to the leadership 
provided by Dr. Sherry Swain, who is the director of the 
institute. Her reputation as a leading expert on writing 
extends far beyond the borders of Mississippi, as evidenced by 
her participation in conferences here and abroad. As a result, 
people from across our country and overseas are aware of the 
quality writing programs that we have in Mississippi. We are 
most fortunate to have Dr. Swain leading the National Writing 
Project in Mississippi.
    Thank you very much for inviting me to offer these 
comments. I must say that the Writing Project in Mississippi is 
truly a bright spot on the education landscape of Mississippi.
    [The statement follows:]
                  Prepared Statement of Huntley Biggs
    My name is Huntley Biggs and I am the Executive Director of the 
Mississippi Power Education Foundation. The Education Foundation was 
established in 1984 to provide grants in support of education in grades 
K-12 in southeast Mississippi. Since inception it has made grants 
totaling $2.7 million. It is my pleasure to offer comments on behalf of 
the Mississippi Power Education Foundation regarding the National 
Writing Project and the Mississippi Writing/Thinking Institute.
    Various national public opinion surveys indicate that the most 
significant threat to the future of this country is the decline in our 
education system. Today businesses face the increasingly difficult 
challenge of hiring workers who can meet even minimal employment 
criteria. Mississippi Power Company is a subsidiary of the Southern 
Company which provides electricity to customers throughout most of 
Alabama, Georgia, about one-third of Mississippi, and the panhandle of 
Florida. The Southern Company employs about 25,000 people in its U.S. 
operations. Across the Southern Company system, we are finding that 70-
75 percent of the applicants for hourly jobs cannot pass the initial 
screening test. The test is designed to evaluate the individual's 
thinking ability rather than his/her technical skills. An 8th grade 
student with minimal reading and mathematical abilities should be able 
to pass the test.
    Recruiting professional people is also a challenge. It is very 
difficult to find people with engineering and information technology 
degrees because the universities are experiencing declining enrollments 
in these demanding academic fields. Those who are available often have 
received their basic K-12 education outside of the United States. U.S. 
schools are just not producing enough people who are qualified to 
pursue degrees in these technical fields. Global competition demands 
that businesses have productive employees who can function effectively 
in the Information Age. Unfortunately, we are not getting them. The 
experience of the Southern Company is no different than that of other 
employers.
    In a nutshell, business needs employees who are literate in 
language arts and math, who can think and solve problems, and who will 
behave ethically. Writing is a basic literacy skill. But there is also 
a clear connection between writing and thinking. Succinct writing is 
the product of analysis, evaluation, and reflection, each of which 
requires thinking. When writing is emphasized in school, students will 
develop their abilities to think, an essential workplace skill. That is 
why we believe that the National Writing Project and the Mississippi 
Writing/Thinking Institute are so important to creating a qualified and 
productive workforce.
    Over the past several years, emphasis has been placed on raising 
educational standards for student achievement. Research shows that 
teachers can make the critical difference in whether or not a student 
succeeds. If we expect students to learn and perform to high standards, 
it is critical that teachers are able to teach to high standards. 
Across the nation today, there is increasing emphasis on the quality of 
teaching. Earlier this year, the National Alliance for Business 
launched a year-long campaign calling for improvements in teaching 
quality. A centerpiece of its recommendations is a new model of teacher 
preparation and professional development.
    At the heart of the National Writing Project in Mississippi is the 
professional development of teachers. By leveraging a relatively modest 
amount of federal and state monies, the Mississippi Writing/Thinking 
Institute offered 109,000 hours of professional development to over 
4,000 teachers in fiscal year 2000. This equates to $1.16 per contact 
hour of federal funds and $3.01 per hour of state funds. The total cost 
including both public and private monies is about $9.25 per hour. This 
is an impressive record. It attests to a very cost-effective model for 
providing top quality professional development to teachers.
    The professional development delivered by the Mississippi Writing/
Thinking Institute is a model of what professional development should 
be. The training courses it offers are not one shot, sit-and-get 
sessions offered by experts who are far removed from the classroom. 
Rather, the instruction takes place over a period of time allowing 
teachers to try out the new practices in their classrooms. The sessions 
include time for follow-up and review of results since the last 
meeting. This helps to ensure that what is learned during the training 
is implemented in the classroom. This is in sharp contrast to most 
staff development which is focused on generating hours of credit, 
rather than on improving classroom teaching.
    The writing project instructors or teacher consultants are 
classroom teachers that know by their own experience what works and 
what does not. The consultants themselves are also practitioners in 
their own classrooms of techniques that they are teaching. 
Consequently, the programs and work of the Mississippi Writing/Thinking 
Institute are highly credible in the eyes of teachers. The consultants 
are well prepared to offer the instruction as a result of participating 
in intensive summer institutes offered through the writing project's 
regional affiliates located on eight university campuses. They are also 
observed and coached by staff of the Mississippi Writing/Thinking 
Institute.
    By taking on the role of a writing project consultant, teachers 
also develop themselves professionally. They have the opportunity to 
interact with other teachers and share best practices. They can compare 
notes and learn new ways of doing things in their classrooms. Time and 
again teachers report that they are better teachers themselves as a 
result of having been a teacher consultant.
    The National Writing Project model emphasizes reflective writing 
and portfolios. Teachers who have been through the Mississippi Writing/
Thinking programs and institutes are well prepared to participate in 
the National Board certification process, part of which requires 
written self-assessment of teaching practices and the development of 
portfolios. Mississippi boasts having 755 Board certified teachers, the 
fifth largest number of any state in the United States. Many of these 
master teachers are products of the Mississippi Writing/Thinking 
Institute's professional development experiences.
    The Mississippi statewide testing program has a writing exercise on 
the fourth, seventh, and tenth grade examinations. Since the teaching 
of writing is rarely offered as a part of the curriculum in the teacher 
preparation degree programs, there has emerged a growing demand for 
professional development programs that can provide teachers with the 
knowledge and skills necessary for teaching writing. The Mississippi 
Writing/Thinking Institute is working diligently to meet that need and 
is worthy of additional funding to meet that challenge.
    We at the Mississippi Power Education Foundation commend those who 
have seen the importance of writing and have taken the steps to infuse 
writing throughout the curriculum. Thanks to Senator Thad Cochran, the 
National Writing Project became a federally funded program. Through his 
leadership in the Senate, federal funding continues to grow in support 
of regional activities such as the Mississippi Writing/Thinking 
Institute.
    The Board of Directors of the Mississippi Power Education 
Foundation recognizes the critical importance of infusing writing 
throughout the K-12 curriculum. Over the past several years the 
Mississippi Power Education Foundation has funded a number of writing 
initiatives that have been fallen under the auspices of the Mississippi 
Writing/Thinking Institute. This investment totals about $50,000. We 
helped to fund summer institutes to train teacher consultants at the 
South Mississippi Writing Program at the University of Southern 
Mississippi. Several school districts received grants from our 
foundation to contract with the Thinking/Writing Institute to provide 
professional development for teachers in how teach writing across the 
entire curriculum. We have found that these programs are of excellent 
quality and compared to other vendors the costs are very reasonable due 
in part to the financial support from federal and state sources. We 
have also been supportive of the Writing/Thinking Institute's Statewide 
Strategic Plan for Writing Improvement by raising the awareness of it 
among potential donors. We are also giving consideration to a grant 
request to fund a pilot project under that Plan.
    Much of the credit for the success of these programs is due to the 
leadership provided by Dr. Sherry Swain, the Director of the 
Mississippi Writing/Thinking Institute. Her reputation as a leading 
expert on writing extends far beyond the borders of Mississippi as 
evidenced by her participation in conferences and boards both in the 
United States and abroad. As a result, people from across the country 
and overseas are aware of the quality writing program that we offer in 
Mississippi. We are most fortunate to have Dr. Swain leading the 
National Writing Project in Mississippi.
    Thank you for allowing me to offer these comments the National 
Writing Project which is a truly bright spot on Mississippi's 
educational landscape.

    Senator Cochran. Thank you, Dr. Biggs. I neglected to 
describe the background and qualifications of this first panel 
of witnesses, and before I do anything else, I am going to let 
you know that not only is Dr. Biggs the executive director of 
the Mississippi Power Company's Education Foundation, he is 
also manager of education services at Mississippi Power Company 
in Gulfport. And prior to that, he was manager of economic 
analysis at the Mississippi Research and Development Center in 
Jackson. Also, from 1977 to 1981, he was the State economist of 
Mississippi. He holds a doctorate degree in economics from 
Vanderbilt University, a master's degree in Latin American 
Studies from Louisiana State University and a bachelor's degree 
from Washington and Lee University.
    Also, I should have pointed out that Dr. Sherry Swain is 
director, as you have now heard described by the panel, of the 
Mississippi Writing and Thinking Institute, which is located on 
the campus of Mississippi State University. She was named top 
researcher at Mississippi State University. She designs 
professional development and secures funding so that teachers 
can develop expertise in writing, performance assessment and 
standards-based education. She serves on the task force for the 
National Writing Project and is the State Network Chair. She 
recently served as a language arts consultant through the 
Department of Defense dependent schools, elaborating on the 
design of a standards-based professional development program to 
be offered at military bases around the world. She co-chaired 
the Global Conversations on Language and Literacy Conference 
held in Holland in August of the year 2000. She is the author 
of several articles on teaching and professional development, 
as well as the book entitled ``I Can Write What's On My Mind: 
Theresa Finds Her Voice,'' published by the National Writing 
Project in 1994.
    And Dr. Richard Sterling is executive director of the 
National Writing Project, with headquarters in Berkeley, 
California. He is an adjunct professor in the Graduate School 
of Education at that university. Formerly, he was the director 
and the founder of the Institute for Literacy Studies at Lehman 
College, part of the City University of New York. He was also 
founder of the New York City Writing Project and the New York 
City Mathematics Project. He has published ``Charting 
Educational Reform,'' in 1992, and the ``Urban Sites Writing 
Network, Hard Talk Among Urban Educators,'' in 1994. He is 
currently working on a 4-year study of school reform projects.
    So as you can see, we have an illustrious and well 
qualified panel to begin today's hearings, and we are very 
grateful for your participation and your assistance to our 
Committee on Appropriations.
    Let me also observe that Dr. Swain's comment about the 
Rural Voices Program is another indication of the leadership 
being provided here in Mississippi for this Writing Project's 
program. It is good to hear about things that we are taking the 
lead on, from the authorization and funding of this project at 
the Federal level to the role model that Mississippi is in the 
administration and the conduct of this writing program. We 
often hear our State criticized for low scores in this or that 
or not being up to speed in some other categories, but this is 
an area where I think we can take a great deal of pride in the 
people of the State of Mississippi who are actually leading the 
way to helping show how students can learn better and teachers 
can be trained more effectively in the teaching of writing and 
other subjects through the use of this program.
    Dr. Biggs, let me ask you a question just as a matter of 
curiosity. Mississippi Power Education Foundation provides 
grants to this program to help pay the way, and you mentioned 
some other foundations and private interests who contribute to 
this program. How do you go about deciding how you spend your 
resources at the Mississippi Power Education Foundation? I know 
you have a lot of requests, you cannot respond to all of them, 
and so what is the process and how did you happen to select 
this program and persuade the powers to be--or maybe you are 
it--to actually make a contribution to this program?
    Dr. Biggs. If I were it, I would have given a lot more than 
$50,000. We do our grant making by process of proposal. So we 
take written proposals from applicants. Areas that we have been 
emphasizing recently include professional development, parental 
involvement, technology and strategic planning. And we feel 
that professional development is a key to improving the quality 
of teaching. Teacher preparation is another aspect that is so 
important to teaching quality, but when you think about the 
number of people who are in the workforce presently that we 
need to help to become better teachers, professional 
development is the way to go. And we feel that the model that 
is provided by the National Writing Project, that of teachers 
teaching teachers, is one that we ought to be pursuing whenever 
we provide for effective professional development. So our 
foundation feels that professional development is a high 
priority, and this particular project does an outstanding, 
excellent job in that regard, so that was a lot of our 
thinking.
    Senator Cochran. Dr. Sterling, in determining how you have 
put together the resources over time that carry out the work of 
this program, about how much of the funding you receive comes 
from private sources as compared to State and Federal or public 
funds?
    Dr. Sterling. Well, because of the leverage that the 
project exerts, I would say that six to one is about the right 
amount, but locally, sometimes it is much more than that. There 
are some projects now that are 1 million, 1.2 million, and 
there are some that are barely the match that is required by 
the Federal law, which is 1 to 1. The average of six does not 
tell you the whole story. There are some small rural projects 
that raise money from local foundations, small banks, some even 
do bake sales. I mean, there is a whole variety of activities 
that go on. Parents raise money in some small communities. In 
others, like New York City, for example, where it is the main 
professional development for writing in that city, and there 
are 60,000 teachers in New York City, so it is a huge program.
    I think that the important thing to remember is that each 
site is autonomous. And so you remember the adage about 
everything in real estate being ``location, location, 
location,'' well, in education, everything is ``context, 
context, context,'' and it is different in every place, so that 
the writing project at Jackson State looks very different from 
the one at UCLA, and it should. And the way they raise money 
locally is also just as different. In some places, where there 
are many foundations, it is a little easier. In other places, 
it is extremely difficult.
    Senator Cochran. You mentioned that you observed that there 
was no authorization requested by the administration in its 
proposed new education program or funding specifically for the 
National Writing Project. It was not until just the last couple 
of years that we were able to convince any administration to 
support the National Writing Project in terms of Federal 
funding. We are happy we finally did get recognition of the 
importance of the program in the last administration. But we 
also noticed, and I am encouraged, that the Department of 
Education is funded in the President's budget at a much higher 
level in comparison to last year's funding of any department in 
Government, an 11 percent increase in that department is 
provided in President Bush's budget proposal. I am hopeful that 
the flexibility that he has talked about can also include the 
flexibility to include funds for other programs that are proven 
to be very effective, such as the National Writing Project. And 
I am hopeful that we can get that done in the budget that has 
just recently been passed by the Congress.
    We have a response that we have to make under the law after 
the President submits his budget request to Congress. The House 
and then the Senate separately adopt resolutions setting forth 
spending priorities of the legislative bodies, and then they 
get together and try to resolve differences and adopt a 
congressional budget resolution. We are in the process of that 
right now, as everyone probably knows. And when we go back next 
week into session, we will take up that issue, at least the 
conferees will, to try to resolve differences between the two 
houses.
    Then the next order of business is the legislation for 
reauthorizing Federal education programs. And that is why I 
thought it was so timely for us to consider this program right 
now and to get some information together as to how it has 
worked, and how successful and important it has been in the 
effort to improve the quality of teaching and also the success 
of learning in our schools across the country.
    I am curious to know, and I think this is a good thing to 
put on the record, Dr. Swain, how you came to be involved in 
this. You said you were a first grade teacher at some point, 
and you had an opportunity to participate in this program as a 
teacher learning from the program. Could you tell us more about 
that and how you translated that experience into the Writing 
and Thinking Institute of Mississippi State University, or how 
that came to be?
    Dr. Swain. Sandra Burkett founded the Writing Project at 
Mississippi State in 1984 and 1985. I attended a meeting where 
she was talking about this wonderful experience for the summer, 
and I gathered up my student samples, and I went to be 
interviewed, because it is a selective process. And I remember 
asking her whether or not she would consider an elementary 
school teacher, and her telling me that if I were accepted, I 
would probably be the only one in the room, which turned out to 
be almost true. But I stayed very quiet, convinced that if they 
found out how little I really knew about writing, they would 
ask me to leave, so I tried to be very quiet and learn 
everything I could before that day came.
    I was also quite determined that everything we looked at, 
all the process kinds of instructions, the idea that you do not 
get it right the first time, the idea that writing happens over 
time and change happens over time, and that a teacher has to 
write with her students, it all made sense, and it made sense 
to me as a first grade teacher, just as it made sense to those 
teaching freshman English in college.
    And I went back with a plan for a research project to see 
if it made a difference. And I used two measures, one was the 
Peabody picture vocabulary test, and a standard vocabulary 
test, and I had a control group, and I took part in Writing 
Project teaching all that year, and I had a control group down 
the hall. At the end of the year, the vocabulary of my first 
graders, who had simply engaged in writing every day, had 
advanced double of those of my counterpart down the hall. She 
had taught the same books, the same program, but without the 
writing every day. And I was just totally hooked. I come from a 
family of researchers, as you know, and I was just totally 
hooked. So every time I was invited to do something, I simply 
said yes, and so here I am. I never said no.
    Senator Cochran. That is a wonderful story, and the Writing 
and Thinking Institute of Mississippi State has grown 
considerably since that first experience that you had, what, in 
1985? Were you among the first?
    Dr. Swain. I was in the first group.
    Senator Cochran. You were in the first one.
    Dr. Swain. We did 11 that first year out of the writing 
project. I now know that it's unheard of, but at the time it 
seemed natural. There were 20 of us, and we had contracted that 
summer, Sandra had, Dr. Burkett, with 11 school districts, for 
a series of 10 sessions each. There were only 20 of us to do 
that work, and we had to get out of our classrooms to go do it. 
We did a phenomenal amount of work for a little band of 20 
pioneers, and it has grown.
    Senator Cochran. How much money did you make?
    Dr. Swain. Enough to buy a good bottle of perfume.
    Senator Cochran. I do not know how much that is. Well, this 
has been a very successful start to this hearing, hearing about 
the project. I know I can ask a lot more questions. We have 
another panel of witnesses to come before us, but let me ask 
Dr. Sterling if he could sum up the experience that he has had 
in bringing teachers to Washington.
    Each year I look forward to hearing and seeing all of you 
gather in the Capitol to remind us of the importance of the 
program. How effective is that contact with the Congress, and 
how effective has it been over the years in building support 
for the program?
    Dr. Sterling. That is a good question to ask me, because I 
have been in this country over 35 years, and one of the things 
I never lose my sense of wonder about is that when we bring 
teachers to Washington, many of them have not been before, or 
they were there when they were in high school, their senior 
trip, and they are astounded at how well their representatives 
and their senators and their staff listen to them. The stories 
they tell when they come back after that day, I wish we had 
them on tape, they are just extraordinary. And the openness and 
the receptivity of staff who are often harassed and tired and 
have been working long, long hours, and yet, almost without 
exception, they are treated gracefully, and they are made to 
feel part of a process that is really important.
    I would say it is one of the most effective things we do. 
We certainly pick up a lot of support from congressmen and from 
senators. And the experience for teachers, though, is in making 
them feel part of something much larger, and that is education 
policy.
    One of the wonderful things that happened when we started 
bringing teachers together from different parts of the country 
is that it broadens their whole look at education. They came 
together, one project in particular had 10 teachers from 10 
different cities, and they came with their complaints about 
their superintendent, about the mayor, about the school, and 
when they started talking to each other, they heard the same 
stories of problems, and all of a sudden, they realized that 
the issues were much deeper and much more interesting than 
blaming an official or blaming somebody who is the principal of 
their school. And that work of bringing them together also 
broadened their whole notion about education, and that problems 
that are happening in L.A. are also true in Chicago and 
Baltimore and New York. And that made them start to look at 
education in a new way.
    Similarly, when they go to Washington, they feel they have 
something to say, they feel they have something to communicate. 
I think that many of the staffers that I see year after year 
will tell you about a specific teacher that came and said this 
project is important, this has changed my teaching, I am now 
staying in teaching, and it is those stories that I think make 
an enormous difference.
    Senator Cochran. I can agree with you wholeheartedly on 
that last point, as well. I remember reading letters that were 
sent to me by teachers in Mississippi who had an opportunity to 
take advantage of the program, attend the workshops and learn 
from it and then to write how it had affected their teaching, 
much as Dr. Swain talked about her experience with her class. 
There is something unique, personal and very honest about that 
kind of assessment from a teacher who is not trying to impress 
anybody in particular or do anything that would benefit herself 
or himself, but yet, they are simply honestly communicating an 
impression that a program has made upon them and their 
students. So I have been moved by the testimonies that I have 
seen in letters, phone calls, and personal encounters, in the 
meetings that you have organized each year.
    Well, I am very hopeful that we can continue to reauthorize 
and program funds for the National Writing Project. Your 
testimony today certainly supports the notion that this is a 
very worthwhile and important investment of federal funds. 
Thank you very much for being our Panel No. 1 today at the 
hearing. Before we invite and introduce our Second Panel, let 
me note that we appreciate the attendance of everyone here 
today, and we have had representatives of some of the news 
organizations of the area. We also have a student group of 
reporters who are covering the hearing, and they are located at 
the round table over there, there we are, 6 or 7 students. You 
all be sure to get it right, it is C-O-C-H-R-A-N.
    Panel 2: Dr. Kim Stasny, Superintendent of Bay St. Louis-
Waveland School District; Stacey Gorum, Teacher at North Bay 
Elementary School; Sharon Ladner, Curriculum Instruction 
Specialist with Pascagoula School District; and Lisa Eveleigh, 
Public Relations Officer for the North Bay Elementary Parent 
Teacher Organization and parent of Helen Eveleigh, a second 
grade student at North Bay Elementary School.
    Thank you very much. Let me invite our Second Panel to come 
forward now, and I will introduce them as they are coming to 
the table. Dr. Kim Myrick Stasny, is the Superintendent of Bay 
St. Louis-Waveland School District, where she has served since 
1990. She was an Elementary Principal for 6 years, Assistant 
Superintendent for three, and has been Superintendent for the 
past 2 years. Prior to becoming an Administrator, Dr. Stasny 
taught for 7 years. She earned her Doctorate from the 
University of New Orleans, Master's Degree from the University 
of Southern Mississippi, and a Bachelor's Degree from Millsaps 
College. Dr. Stasny, was named Fifth Congressional District 
Administrator of the year in 1995, and was awarded the Richard 
D. Miller Scholarship of American Association of School 
Administrators during her doctoral work. She served as a board 
member for Mississippi Professional Educators, co-chair for 
Gulf Coast Education Improvement Consortium and President of 
Mississippi Association of Elementary School Administrators, 
District 9. She also belongs to several national education 
organizations.
    Stacey Gorum, has been teaching at North Bay Elementary 
School for the past 5 years. She is a 1996 graduate of the 
University of Southern Mississippi, and has been a writing 
project teacher since 1997. In August 2000, Ms. Gorum, made a 
professional presentation at the Fourth International 
Conference on Literacy, held in the Netherlands.
    Sharon McKenna Ladner, has 26 years of experience as a 
Secondary Language Arts Teacher. She currently serves as a 
Curriculum Instruction Specialist with the Pascagoula School 
District. She is an active member in teacher consulting of the 
South Mississippi Writing Project and the newly chartered Live 
Oak Writing Project at the University of Southern Mississippi 
Gulf Coast. Ms. Ladner, is a recipient of the 1998 Milken 
National Educator Award, the 1998 United States-Russia Awards 
for Excellence in Teaching English and American Studies, and 
the DeWitt-Wallace Reader's Digest Graduate Fellowship to the 
Bread Loaf School of English. She holds a Master's of Arts in 
English from Bread Loaf's Lincoln College Campus, in Oxford, 
England. Ms. Ladner, is also a Mississippi Teacher of the Year 
finalist, an Alan R. Barton Excellence in Teaching Award 
recipient, and a National Board Certified Teacher in Adolescent 
and Young Adult English Language Arts. Ms. Ladner, is currently 
enrolled in a doctoral program in Educational Leadership at 
Nova Southeastern University in Florida.
    Ms. Lisa Eveleigh, is an Editor for Southern Cultures, a 
University of North Carolina Journal. She is the Public 
Relations Officer for the North Bay Elementary Parent Teacher 
Organization. She and her husband are the parents of Helen, a 
second grade student at North Bay Elementary School.
    We have copies of statements from witnesses on Panel 2, and 
I will point out that we will include those written statements 
into the record in full, and we encourage you to make whatever 
oral statements or comments you think would be helpful to our 
hearing. Let us start with Dr. Stasny, Superintendent of Bay 
St. Louis-Waveland School District.
STATEMENT OF KIM MYRICK STASNY, Ph.D., SUPERINTENDENT, 
            BAY ST. LOUIS-WAVELAND SCHOOL DISTRICT
    Dr. Stasny. Thank you, Senator Cochran. I would like to 
reiterate that we are delighted to have you in our district 
today, and it is a pleasure to host this Senate hearing for 
you. Ten years ago, which takes us back a few years, I had a 
teacher who was selected to participate in a summer institute 
at USM. And neither of us knew very much about the Mississippi 
Writing and Thinking Institute, and we decided that it would be 
a worthwhile experience. So the teacher went to the summer 
institute and participated. She returned for the new school 
year absolutely invigorated to implement the new philosophy 
that she had now embraced. And then in the fall of that same 
year, she was invited to be a part of the Portfolio Assessment 
Task Force that was formed representing the whole State of 
Mississippi, and it was sponsored by the Mississippi Writing 
and Thinking Project. That was such an honor for us to have a 
teacher on that task force, and what an impact it has made in 
our district.
    Knowing that many children lose their interest in school by 
the time they reach third grade and then add to the dropout 
rate by the time they reach ninth grade, we decided at the 
lower elementary, K through 3, to do something about it during 
the early years, during their formative years. So the 
Mississippi Writing and Thinking Institute has assisted us 
diligently in implementing a nongraded assessment system in 
kindergarten through third grade. By focusing on learning just 
for the sake of learning in a noncompetitive environment, all 
children, and I would like to reemphasize all children, are 
given the opportunity to gain the critical skills without 
losing their enthusiasm for learning.
    However, my feet are grounded in reality, and I understand 
all too clearly that test scores are used, or should I say 
misused, to measure an individual's worth. But our test scores 
in grades four through nine have improved dramatically over the 
past five years. However, the most staggering statistics that 
we have in our district are found in the fourth grade 
percentile, where there has been a decrease of students by 14 
percentage points. And that speaks very well of our K through 3 
schools and the teachers there, and it indicates that they are 
doing the right thing. And I believe with all my heart that the 
professional development that we have had through the 
Mississippi Writing and Thinking Institute has sparked these 
change in scores. And we all know that change is often times 
slow and often times painful, but we see the results.
    Looking beyond testing, and more importantly to me, is the 
success of an individual child. And it is the child who may 
have otherwise been labeled at an early age to be learning 
disabled, to be a slow learner or to be dyslexic. And we all 
know how labels stick. It is the child who was given a fair 
opportunity to learn at a slower rate without being squashed by 
the old system before he had a chance to develop. It is the 
child similar to an Einstein or a Winston Churchill who has a 
tremendous amount to contribute to society in spite of the 
stigma of test scores. It is the child who one day will be our 
next John Grisham, Eudora Welty, because during their early 
years, they were inspired to put their feelings down on paper. 
Those successes cannot be measured by test scores, but we will 
celebrate them just the same.
    Over the years, we have found very creative ways to bring 
the Writing and Thinking Institute into our schools, because we 
felt that that was a very important vision that we wanted to 
meet and to realize. So in addition to dollars from Eisenhower, 
Title I, and class size reduction, we blended with State and 
local funds and with grant money, such as the Mississippi Power 
Foundation and BellSouth grants, to help us realize our vision. 
Last year alone, we spent $25,000. This year, we are spending 
$33,000, as we expand our professional development to reach the 
teachers in fourth and fifth grades. Next year we will include 
this middle school, sixth through eighth, so the momentum that 
we have been able to create for writing and thinking 
independently can be realized here, as well.

                           PREPARED STATEMENT

    If we look at the dollars spent over the past 10 years, I 
would dare say that it reaches into the hundreds of thousands 
and worth every penny of it. And who would have ever guessed 
that one teacher attending one institute would have created so 
much change in our district. Thank you.
    [The statement follows:]
                Prepared Statement of Kim Myrick Stasny
    Ten years ago, I had a teacher who was selected to participate in 
the summer institute at USM. Neither of us knew very much about the 
Mississippi Writing/Thinking Institute but thought it would be a 
worthwhile experience. This teacher returned for a new school year, 
invigorated to implement the philosophy she now embraced and in the 
fall of that same year, was invited to serve on a Portfolio Assessment 
Task Force sponsored by the Mississippi Writing/Thinking Project. What 
an honor! And what an impact it has made on our district!
    Knowing that many children lose their interest in school by the 
time they enter third grade and add to the drop out rate by ninth 
grade, we decided to do something about it during the early years. The 
Mississippi Writing/Thinking Institute assisted us in implementing a 
nongraded assessment system in kindergarten through third grade. By 
focusing on learning for the sake of learning in a non-competitive 
environment, all children are given the opportunity to acquire critical 
skills without losing their enthusiasm for learning.
    My feet are grounded in reality. I understand all too clearly how 
test scores are used, or should I say misused, to measure an 
individual's worth. Our test scores in grades four through nine have 
improved dramatically over the past five years. However, the most 
staggering statistics are seen in the fourth grade lower quartile where 
there has been a decrease of 14 percentage points. That speaks well of 
our K-3 schools and indicates they are doing something right. I believe 
with all my heart that professional development through the Writing/
Thinking Institute has sparked the change in scores.
    Looking beyond testing and more importantly to me is the success of 
the individual. It's the child who may have otherwise been labeled at 
an early age as a slow learner or learning disabled or dyslexic. And we 
all know, labels stick. It's the child who was given a fair opportunity 
to learn at a slower rate without being ``squashed by the system'' 
before he had a chance to develop. It's the child, similar to an 
Einstein or Winston Churchill, who has a tremendous amount to 
contribute to society in spite of the stigma of test scores. It's the 
child who one day will be our next John Grisham or Eudora Welty because 
during their early years they were inspired to express themselves on 
paper. Those successes cannot be measured with test scores. And we will 
celebrate them just the same.
    Over the years, we have found creative ways to bring the Writing/
Thinking Institute into our schools. Dollars from Eisenhower, Title I, 
and Class Size Reduction have been blended with state and local funds 
to help us realize our vision. Last year, we spent $25K and this year 
$33K as we expand professional development to reach fourth and fifth 
grade teachers. Next year we will include the middle school so the 
momentum that has been created for writing and thinking independently 
can be nurtured. If we look at the dollars spent over the past ten 
years, I estimate it would reach into the hundreds of thousands and 
worth every penny of it. Who would have ever guessed that one teacher 
attending one summer institute would have created so much change?

    Senator Cochran. Thank you very much, Dr. Stasny. Now, 
Stacey Gorum.
STATEMENT OF STACEY GORUM, TEACHER, NORTH BAY 
            ELEMENTARY SCHOOL
    Ms. Gorum. Thank you for having me today. I am honored to 
be here from the trenches. I truly love my school, and I am 
proud to be speaking to you today.
    ``I know I am a good reader, because I read every day at 
school and at home. When I read Peter and the Wolf to my class, 
it made me proud.''
    ``Sometimes when I do not know a word, or if I cannot read 
someone's name, I just say ``A'' if it starts with an ``A'' 
like Allison, and I keep on reading.''
    ``I can read a joke book to calm myself down. When I am 
finished, I can let my friend read the book if he needs to calm 
down, too.''
    ``My plan to be an even better reader is to read more books 
and write some, too.''
    ``These excerpts were taken from a reflection written by a 
third grade student in my classroom during a demonstration 
lesson presented by Linda Allsup of the Writing and Thinking 
Institute. This child has revealed so much to us in this one 
reflection. He wrote that he has learned a valuable life skill 
by using a joke book to calm himself down. He described a 
strategy he uses in reading when he comes to an unknown word, 
and he States how he plans to continue the learning process. He 
has also expressed that reading aloud to a group of people can 
improve his self-esteem. Through this one lesson, a wonderful 
tool box has been taken from the teacher and turned over to the 
learner, a tool box that will aid this child through school and 
afterward into a lifetime of learning. To witness this amazing 
transformation from passive learner to active learner is why I 
am what I am, a teacher turned facilitator. I too have been 
given the power, the power to let go, to let the students 
become their own navigators in the vast sea of knowledge.
    Thanks to our Bay-Waveland School District's continued 
support in providing quality and professional development, and 
thanks to the Writing and Thinking Institute's guidance, 
training and encouragement, I have been given the validation to 
empower my students. My training with the Writing and Thinking 
Institute commenced as I attended the South Mississippi Project 
in the summer of 1997. We worked through the writing process, 
held response groups for personal to professional writing, 
demonstrated lessons for each other and published an anthology, 
thanks to Huntley Biggs. We did research and created lessons 
that were authentic, reflective and connected writing with 
every content area. We got a firsthand look at what our 
students go through as we asked them to be introspective. 
Through our own reflective writing, we found ways we learn best 
and wrote about what we learned. The project is comprised of 
teachers as learners, helping each other to become thinking, 
reflective helpers.
    My multi-age classroom is a learning community. We explore 
avenues of interest guided by the Mississippi State Board of 
Education framework, and we examine ourselves in an environment 
prepared for learning. When people enter our classroom, they 
often have trouble locating me, the facilitator, because I am 
among the learners. My assistant and I use every available 
resource to create an environment where children build 
knowledge based on life experiences, hands-on project based 
learning, and other such activities. We use chart paper, large 
boxes, file folders, refrigerator boxes, computers, math 
manipulatives, clip boards, reference books from the library 
and an extensive supply of art materials. When a project is 
complete, the learner knows that he or she will use a rubric to 
self evaluate the project, share the project with others and 
listen to their responses for peer evaluation and publish the 
piece or project and, finally, write a reflection to connect 
the enterprise with the world and with learning.
    These keys to successful learning are embraced by the Bay-
Waveland School District's method of assessment for students K 
through 3. Through authentic portfolio based assessment, our 
students see their growth through the year. They determine 
their own interest, and they write about how it affects their 
personal lives and their school lives. They understand their 
successes and base personal learning goals on their learning 
style, intelligences and interests. This, once again, brings me 
to the Writing and Thinking Institute.
    In 1997, I began my professional development with the 
Writing and Thinking Institute. All second grade teachers and 
teachers to our district who were new were undergoing a year 
long embedded training for portfolio based assessment. Within 
this training, we defined guidelines, dissected the philosophy, 
researched the approaches and constructed our own methods of 
implementing the concept of authentic assessment into our 
classrooms. We created personal portfolios and underwent the 
processes we are asking our students to perform, processes like 
collecting, selecting and reflecting on our lessons, personal 
writing pieces and professional pieces. This training is 
irreplaceable.
    In the past 3 years, my experiences with the Writing and 
Thinking Institute have improved my personal writing and my 
professional writing. The embedded training has included 
complete staff development for teachers and students K through 
3, study group sessions with teachers just from my school and 
sessions with grade level group district wide. These sessions 
have made my teacher narratives more detailed and, therefore, 
more meaningful to parents and educators, my documentation of 
student observations and accomplishments more complete and, 
therefore, my teaching more accountable and my knowledge of 
learning much deeper.
    Our school district has come together through these 
meetings, and we have established standards for our portfolio 
based assessment. We have edited and completed our student 
portfolios and profiles until we developed a working vitae that 
meets our needs as educators that is understandable to parents 
and help students set goals for future endeavors. We also added 
progress reports to communicate student growth to parents more 
often. This year, we have had a parent observation journal to 
gather anecdotal stories and notes from home. We were guided 
through these processes by the Writing and Thinking Institute. 
Our facilitators kept track of our course to help us reach our 
goal. We will continue to examine our methods of assessment and 
make necessary changes, trying to provide a picture of the 
whole child, the social, physical, intelligent, creative and 
emotional being.
    I have continued to grow in my philosophy that when 
learners understand how and why they are learning, there is no 
limit to what he or she can accomplish. As I meet the 
objectives and bench marks set forth by the State of 
Mississippi, this invaluable training has enabled me to 
continue to learn and facilitate learning. Thank you for giving 
me this opportunity today to give testimony.
    Senator Cochran. Thank you very much, Ms. Gorum, for 
participating. Our next witness is Sharon McKenna Ladner. Ms. 
Ladner.
STATEMENT OF SHARON McKENNA LADNER, CURRICULUM 
            INSTRUCTION SPECIALIST, PASCAGOUA SCHOOL 
            DISTRICT
    Ms. Ladner. Thank you and welcome to the Mississippi Gulf 
Coast. It is a beautiful day out there today, and I am 
certainly glad to be here. I bring to this, as a witness, I 
bring a different perspective, and I think that is probably the 
extent of today's panel is that everyone has a different 
perspective. I am a classroom teacher, but I have been 
fortunate enough to be selected as a lead teacher for 
Curriculum Instruction in my district. And what that does is it 
places me alongside teachers in classrooms. In other words, my 
job is to help implement and see that everything that is going 
on in our curriculum and through the training that the writing 
project gives us actually is in place.
    Probably my vantage point is the luckiest one here, because 
I am able to actually see what happens when those teachers 
begin to implement the strategies and the rich things that they 
have learned in that type of training session, to be able to 
get them to go from the training into the classroom and to 
actually work and have them think and ask questions and then 
pull back and to write and create again. And they become 
somewhat like, I like to think of them as doctors, because they 
are able to better go in and assess their students' needs to be 
able to prescribe better for what they need and actually go in 
there and try it out. And after they go in and try it out, they 
are able to pull back and make additional assessments and be 
able to plan again for the next day.
    Recently, I was in a social studies classroom in Gautier 
Middle School, and there I watched that happen. A teacher now 
was freed from the theory books and the practice and isolation 
into just a plethora of different types of strategies to use. 
When I walked into his classroom, there he had a group of 
students doing really rich research in databases, okay, and 
then another group actively working on a project, while two or 
three others were working on their writing and so forth. And 
the teacher was going on and observing and making notes and 
coming back and saying, okay, what does this mean when this 
happens. That is where the power is. That is where the writing 
project really makes its difference, and I am able to go in and 
see that, and that makes it all the more special.
    As a teacher myself, I owe everything that I have done 
professionally as a teacher to a lot of people in this room. Of 
course, my mother, who is a teacher herself, is in this room, a 
lot of writing project sisters and brothers, but my love of the 
writing project probably came behind a bathroom door in 
Jackson, Mississippi, when one Sherry Swain cornered me, oh, 
back in 1993, I guess it was, and said wait a minute. From that 
point on, I began to see exactly that my philosophies on what 
learning needed to be came together in such a beautiful way as 
I was gifted with the training and portfolios and assessment in 
teaching those types of professional development, going through 
the writing project myself. Not too long ago, when I received 
an award, I sat back and I thought, you know, no person, no 
teacher develops in isolation. It takes many people to shape a 
teacher. So I picked up the phone, and I made a very important 
phone call to Sherry Swain that day, because I wanted to thank 
her, because the writing project has given me the ability to 
become so much more than I ever originally thought. And the 
impact that it makes on the students is just amazing.
    This is kind of silly, but just a few weeks ago, we had the 
Junior Miss Pageant for both Pascagoula and Gautier, and the 
winner had to speak about, well, actually, all the girls had to 
speak about their hero, and she selected me. Do you know why, 
because I was able to give her the freedom of writing and to 
become a writer and to know herself better and to become a 
better student. And that is probably the best award that I have 
ever gotten publicly like that, because it brought the whole 
thing that I have done to a point to where I could actually see 
that difference. So, to me, the National Writing Project is the 
very essence of what teacher education and bringing teacher 
quality should be. All I can do is hope that I can continue my 
part with the National Writing Project, with the Mississippi 
Writing and Thinking Institute, with the USM Writing Project 
and the newly formed Live Oak One, so that I can continue to 
help other teachers as those people helped me.
    In closing, I wanted to share with you, we just completed a 
writing project, a segment of sessions of writing project 
called the Wonder of Learning in our district. And I could not 
help when I was creating this to be able to pull a few--what we 
do is after we go to evaluate a project like this, we want to 
ask teachers too, we invite them to respond in writing about 
what they think, about the impact that the training has made in 
their lives as teachers. We also ask the students. Allow me to 
read a couple of short ones here. This is from Lisa Myers. She 
is a sixth grade school teacher at William Palmer Middle 
School. ``I just completed a 7 month ongoing training program 
delivered by the Mississippi Writing and Thinking Institute. As 
a math teacher in the Pascagoula school system, I have acquired 
writing skills in this workshop that I can take back to the 
classroom to better stimulate and motivate my students. I can 
monitor and adjust this newly acquired information to meet each 
student's needs, integrate via technology training I received 
and better prepare my students for the future.'' Ada Carlisle, 
from Trent Lott Middle School, says ``the difference their 
Wonder of Learning Program has made in the lives of teachers 
and students is incredible,'' exclamation point. ``But the best 
part is the reaction of individual students as their eyes are 
opened in wonder and excitement. Please, please, please keep 
this funding going.'' Sissie Tumer, from Gautier Middle School 
is a sixth grade student. She made a very, very important 
observation. She says, ``if you ask a school dropout why they 
quit, they would probably say because school is so boring. I 
hope we can keep doing the reading writing process, because it 
is different. It is the kind of thing that helps make us smart 
while it's still being fun.'' And finally, Maurice Mendenhall, 
a sixth grade student from Gautier Middle School, said, ``you, 
the teacher, do not limit me anymore on what I can learn.''
    My closing statement is a statement that of teacher mentor 
of mine, Dixie Gaswami, one of my favorite teachers from my 
Master's Program at Bread Loaf School of English. She whipped 
by an e-mail the other day, and she grabbed a quote from 
somewhere, but I thought that this totally embodies the spirit 
of the National Writing Project teacher consultant, and this is 
what it says: You must be the change you want to see in the 
world, you must be the change.
    Thank you very much for allowing me to speak to you today. 
It has been an honor.
    Senator Cochran. Thank you very much for your contribution 
to the hearing. That was a very eloquent statement. Lisa 
Eveleigh.
STATEMENT OF LISA EVELEIGH, PARENT, NORTH ELEMENTARY, 
            BAY ST. LOUIS, MS
    Ms. Eveleigh. Thank you for having me here. It is an honor 
to represent the parents in the district. As a parent, I can 
say that the National Writing Project has had a direct and 
tremendously beneficial effect on the education of my child, or 
rather, is having a direct benefit. My daughter Helen, is 
nearing the end of her second year in a multi-aged first 
through third grade classroom at North Bay Elementary here in 
Bay St. Louis, Mississippi. And yes, it is a rural school in a 
State that often scores near the bottom in standardized 
testing. So why is my daughter having another fabulous year 
reading and writing well above grade level, enjoying school and 
proving herself an independent learner, by, for example, her 
extremely knowledgeable command of the archaic details of Henry 
the Eighth's many marriages? In part, it is because she is the 
daughter of a historian and an editor, but in greater part, it 
is because the teachers she has had at North Bay believe that 
what a child does with knowledge matters. And I believe that 
the National Writing Project directly fosters this approach to 
teaching and learning, and I am grateful for its influence in 
my daughter's classroom and in the school that she attends.
    The teachers who participate in the program, as you know, 
are from any grade level and discipline. My daughter's teacher, 
Mary Kay Dean, has been involved with this program since its 
earliest days, I believe. And as a regular volunteer in her 
classroom, I see the benefits of that involvement first hand. 
Ms. Dean's active use of the strategy she has developed through 
the National Writing Project has helped Helen, at the end of 
her first grade year, complete a written research project of 
Beatrix Potter, that perennial favorite children's author. And 
it is absolutely wonderful to read those Peter Rabbit stories, 
but to read them and then explore them by writing about them is 
more than wonderful, it is divine. It is to enter into an act 
of creation in and of itself. And we want our children to be 
active learners, to take the knowledge that is handed to them 
and fashion it into something to make it their own.
    I would like to share with you a sample of my daughter's 
writing that is included in this wonderful anthology of 
original fiction of poetry by students in her class last year. 
And every child in the class contributed to this book. And my 
point here is not to share with you how talented my kid is, of 
course, do not all parents believe their children are, my point 
is actually to share with you a verse from a poem that could be 
written by any child in first, second or third grade, and, in 
fact, each child in my daughter's classroom did write one of 
these poems. And here is one verse, which is one of three:

    I am Helen, a sister, a cousin, a babysitter, a daughter, a 
book lover and a person who enjoys science. I wonder why it 
never snows in Mississippi. I hear my little sister slam the 
screen door, she is leaving for the store with my mother. I 
hear my cat turn on the car motor. I see my cat going to the 
store wearing lipstick and coming back with 10,000 cans of cat 
food. I want my sister to stop coming in the room and wrecking 
it up. I am Helen, a sister, a cousin, a babysitter, a 
daughter, a book lover and a person who enjoys science.

    And the poem evolves in that fashion, repeating that 
refrain.
    The reason that my daughter wrote this poem and many other 
writings in her classroom is because her teacher's interest in 
writing. And why is her teacher interested in writing? They are 
not only interested in writing, but able to develop writing in 
her students, because through the National Writing Project, she 
has had the opportunity to transform this interest into a plan 
for the classroom to engage the writer in her students. I know 
as a writer and editor, and my husband, a historian, will agree 
with me, and you might too, that the best way to truly 
crystallize an idea is to do so in writing, whether we are 
talking about a menu or grocery list, a family calendar, a 
letter to the editor of the local Seacoast Echo, a complex 
computer program designed for use at Stennis Space Center or a 
dissertation in anthropology. We are all writers in one way or 
another, and to write is to know.
    We have a president now who has made literacy the focus of 
his educational directives, a president whose wife is a former 
school librarian. It would be extremely shortsighted of him to 
cut a quarter century old program with a proven track record 
that rests at the heart of any literacy initiative, for writing 
is a complement of reading. Without writing, the real and 
original thinking that is sparked by literacy simply will not 
develop.

                           PREPARED STATEMENT

    As a parent of a child who has directly benefitted from the 
National Writing Project, I thank Senator Cochran for his 
continued support, and I respectfully respect that Senator Lott 
continues supporting the program he has endorsed in the past, 
and I hope that President Bush has the wisdom to recognize that 
the National Writing Project is making a difference in the 
lives of our children as it has in Helen and those of her 
classmates.
    [The statement follows:]
                  Prepared Statement of Lisa Eveleigh
    As a parent I can say that the National Writing Project has had a 
direct and tremendously beneficial effect on the education of my child. 
My daughter, Helen, is nearing the end of her second year in a multi-
age first- through third-grade classroom at North Bay Elementary in Bay 
St. Louis, Mississippi. Yes, we are in a ``rural'' school in the one 
state in the union that routinely scores at the bottom in all manner of 
standardized testing. So why is our daughter having another fabulous 
year--reading and writing well above grade level, enjoying school, and 
proving herself an independent learner by, for example, her extremely 
knowledgeable command of the arcane details of Henry VIII's many 
marriages? In part, it's because she is the daughter of a historian and 
an editor, but in greater part it is because the teachers she has had 
at North Bay believe that what a child does with knowledge matters. And 
I believe that the National Writing Project directly fosters this 
approach to teaching and learning, and I am grateful for its influence 
in my daughter's classroom.
    In Mississippi the National Writing Project fosters the Writing/
Thinking Institute, which has a presence on seven of the state's 
university campuses. Teachers train in teaching reading and writing 
together through the summer institutes and turn right around and apply 
what they've learned to their classrooms. The partner in learning for 
the teacher is the university. The teachers at the institute are other 
teachers who are experienced in the program. The teachers who 
participate are from any grade level and discipline. My daughter's 
teacher, Mary Kay Deen, has been involved with this program since its 
earliest days, and as a regular volunteer in her classroom, I see the 
benefits of that involvement firsthand.
    Ms. Deen's active use of the strategies she has developed through 
the National Writing Project is why Helen, at the end of her first 
grade year, completed a written research project on Beatrix Potter, 
that perennial favorite children's author. It's absolutely wonderful to 
read the Peter Rabbit stories. But to read them and then explore them 
by writing about them is more than wonderful. It is divine; it is to 
enter into an act of creation in and of itself. We want our children to 
be active learners, to take the knowledge that is handed to them and 
fashion it into something, to make it their own.
    I would like to share with you a sample of my daughter's writing 
that is included in this wonderful anthology of original fiction and 
poetry by students in her class last year. Every child in the class 
contributed to this book. My point here is not to share with you how 
talented my kid is. Of course-don't all parents believe their children 
are? My point is to share with you a verse from a poem that could be 
written by any child in first, second, or third grade-and, in fact, 
each child in my daughter's classroom did write one of these poems.
    Here's one verse, which is one of three:

I am Helen, a sister, a cousin, a baby sitter, a daughter, a book lover 
        and a person who enjoys science.
I wonder why it never snows in Mississippi. I hear my little sister 
        slam the screen door as she is leaving for the store with my 
        mother.
I hear my cat turn on the car motor.
I see my cat going to the store wearing lipstick and coming back with 
        ten thousand cans of cat food.
I want my sister to stop coming in the room and wrecking it up.
I am Helen, a sister, a cousin, a baby sitter, a daughter, a book 
        lover, and a person who enjoys science.

    The reason that my daughter wrote this poem, and many other 
writings, is because her teacher is interested in writing. And why is 
her teacher interested in writing, and not only interested in writing, 
but able to develop writing in her students? Because through the 
National Writing Project, she has had the opportunity to transform this 
interest into a plan for the classroom to engage the writer in her 
students.
    I know as a writer and editor, and my husband, a historian, will 
agree with me (and you might too), that the best way to truly 
crystallize an idea is to do so in writing-whether we're talking about 
a menu or grocery list, a family calendar, a letter to the editor of 
the local Sea Coast Echo, a complex computer program designed for use 
at Stennis Space Center, or a dissertation in anthropology. We are all 
writers, in one way or another. And to write is to know.
    We now have a president who says he has made literacy the focus of 
his educational directives, a president whose wife is a former school 
librarian. It would be extremely short-sighted of him to cut a quarter-
century-old program with a proven track record that rests at the heart 
of any literacy initiative. For writing is the complement of reading, 
the yin to its yang. Without writing, the real and original thinking 
that is sparked by literacy simply won't happen. As the parent of a 
child who has directly benefited from the National Writing Project, I 
thank Senator Cochran for his continued support. I respectfully request 
that Senator Lott continue supporting a program he has endorsed in the 
past. And I hope that President Bush has the wisdom to recognize that 
the National Writing Project is making a difference in the lives of all 
our children, as it has in Helen's and those of her classmates.

    Senator Cochran. Thank you very much. That is a very 
interesting and informative presentation and heartwarming 
presentation by this panel. And I am deeply grateful for each 
of you for taking the time to participate in it and help us 
understand, from your point of view, the importance of the 
National Writing Project in our State and locally-based 
projects that flow from that.
    Let me ask a few questions that we had thought about in 
advance that might help us create a record of information and 
facts about this program that could be persuasive to others who 
may read the record, members of the staff of our subcommittee 
on appropriations and other senators, as well. Dr. Stasny, let 
me ask you, as a superintendent, what differences do you see in 
the teachers and students that you can attribute to the 
Mississippi Writing and Thinking Project?
    Dr. Stasny. Probably going back to a mission statement that 
was created 7 or 8 years ago, is to create life-long learners. 
And when a teacher goes through the Mississippi Writing and 
Thinking Institute, it really changes their perspective on what 
learning is, and they always come back with that love of books, 
with the love of writing, with the love and desire to learn 
more. And that is an absolutely perfect model for the children 
in those classrooms. For the children, I see more excitement in 
the classroom as they go about actively learning. It is amazing 
to walk into the classrooms and see them critiquing each 
other's work and making suggestions on how they could make it 
better or are suggesting how they could explain a concept 
better than what they did. And they really truly get into this, 
even at the kindergarten age when they cannot read, but they 
can still learn to edit and to critique each other in a very 
humane and kind way, where there is not any competition or any 
put-downs, so to speak, with the classes. So I am seeing more 
energetic and more enthusiastic learners come up. And I am 
anxious to see by the time they get to ninth grade, what 
differences are made as the dropout rates begin, because that 
is where they start leaving our school system and going on 
their own way without finishing their high school education.
    Senator Cochran. Does costs deter teacher participation in 
this or other professional development?
    Dr. Stasny. In our particular district, we have provided 
all of the professional development for the teachers at no cost 
to them. I think travel is always paid for if they have to go 
away. For the last few years, we have used the peer coaching 
model, where the Mississippi Writing and Thinking Institute 
teachers are here in the district with us, and they are here 
now finishing up this particular year. So as far as cost to the 
teachers, no. And we have made it a priority in our district to 
provide this training, and that is where we put our focus. So 
we find the funds one way or the other, and it always helps to 
know that there will be funds continued from the sources that I 
mentioned earlier.
    Senator Cochran. Let me ask Ms. Gorum this question: How 
have you have found the National Writing Project, or in this 
occasion, the Mississippi Writing and Thinking Project, 
different from other professional development experiences?
    Ms. Gorum. Well, for one thing, it started with an 
intensive everybody get together for a long period of time and 
work together and camaraderie, and then it was embedded, and it 
has been embedded as part of my professional development since 
1997, so for 4 years, and we have grown together. We have gone 
from trying to implement one idea into turning it into a very 
large picture, getting in as deep as how learning actually 
takes place and brain based research, and we have drawn in the 
arts, and it has grown, it has mushroomed. And our 
facilitators, the people that work with us all year long, the 
same people, having the same folks return has really bonded us 
together, but I think mostly just having that embedded ongoing 
training has been very different from any other professional 
development.
    Senator Cochran. Ms. Ladner, let me ask you how did your 
classrooms change after you began participating in the Writing 
Project Professional Development?
    Ms. Ladner. If I have to go back and pick one thing, I 
would think that it would have to be the grass roots, I want to 
say, movements that I took with my students in my classroom to 
reevaluate. What happened to me is it actually got me to 
reevaluate everything I did and go back to what I was really 
trying to do teaching and goal wise and how I was going to get 
there and why I chose the things I chose to do and what 
happened when I chose to do them. And together, it was like the 
best of teacher research, because, you know, together with the 
students that I had at that time, I kind of stumbled around a 
lot and so forth, but there was something in me that it was, I 
do not know whether it is born in or what, I just knew when 
good instruction happened. And the particular training that I 
had with portfolios and then the actual summer institute that I 
attended helped to shape all of this into sense, it made sense. 
And ever since then, everything that has come along, every 
national standard, I am talking about academic and for teachers 
with the national board, has all played into what already 
existed with the National Writing Project. It is almost like 
the National Writing Project is the one that had the first 
dibby-dubs, if you want to call it, on these standards and the 
way they are put into the classroom.
    So what happened as a teacher in moving this through grass 
roots in my classroom, as things get piled on me with standards 
and curriculum and so forth, it is like, oh, that is right, 
well, that is just more of this, or that is what I already do. 
And so now what happens to me as a teacher, it is my 
responsibility to be able to help teachers make some sense out 
of the standards, because knowing your subject matter is one 
thing, being able to teach it to students in this manner is 
quite another. So I think that messiness, that grass roots that 
helped me change and helped me make sense, and then when 
standards were brought in, they really made sense. And now it 
is moving on beyond my classroom into others.
    Senator Cochran. Ms. Eveleigh, as a parent, have you 
learned some indicators of good writing instruction?
    Ms. Eveleigh. Yes, I have. I think it is a willingness to 
move away from the end result and give over to the process, 
because I have noticed that I really like the fact that 
students at Helen's school keep a portfolio, and they select it 
themselves. And I have seen my daughter go through four drafts 
of a story on the computer to get it exactly where she wants it 
to be. And if we had just started with a first draft, she never 
would have been there. That would have been evaluated, it would 
have been over with, but she has been able to go back to it 
over a period of time, go through the whole process, and then 
she is satisfied with it, and so are the rest of us.
    Senator Cochran. How has your daughter's experience changed 
the way you look at her writing?
    Ms. Eveleigh. Well, she is so young, and she is my oldest 
child, so I really did not go into it with a distinct way of 
looking at the writing, but I feel really encouraged. I know 
that the first thing she brings home is not exactly a 
reflection on all that she can do.
    Senator Cochran. Well, it is an interesting experience for 
me to hear the perspectives that each of you have brought to 
this hearing and the experiences that you have had and the 
understanding that you have of the program and how it works and 
how it has succeeded in changing lives, not only yours, but 
others in the process, and emphasizes the value that it 
represents in our educational institutions.
    We have available to us a number of documents that I am 
putting in the record of the hearing and including in our 
records, so that we will have a full body of information, for 
example, a copy of the Academy of Educational Development 
study, which I quoted from earlier. I am talking about the 
National Writing Project Evaluation Student Writing 
Achievement, Year One. There are a number of written 
testimonies, which we will also include in the hearing record. 
Also, the record, for the information of all of you who are 
attending the hearing, the record will remain open for a period 
of 2 weeks, and we will be glad to receive any comments, 
letters, statements that anyone wishes to submit to the 
committee for inclusion in the hearing record that may be 
pertinent to this subject.
    [The information follows:]
National Writing Project Evaluation, Student Writing Achievement, Year 
                              One Results
                           EXECUTIVE SUMMARY
    The National Writing Project (NWP) is a nationwide professional 
development network of teachers that works to improve the teaching of 
writing across the curriculum. Currently serving 168 local sites across 
the country, NWP is a ``teachers-teaching-teachers'' model of 
professional development. In 1999, NWP commissioned the Academy for 
Educational Development (AED) to conduct a national evaluation of the 
project. This report presents the findings from 583 third- and fourth-
grade students who responded to timed writing assignments, or 
``prompts.'' Other data collected for this evaluation, including data 
on NWP teachers' classroom practices, teacher assignments and the 
accompanying student work will provide an understanding of the context 
for writing in NWP classrooms and will be discussed in subsequent 
reports.
    The writing prompts were administered in 24 classrooms in four 
states. All participating teachers attended a writing project summer 
institute and had experience with NWP that varied from a few years to 
more than eight years. The sites and classrooms selected represent a 
diverse sample of NWP classrooms in terms of location, setting, size of 
district and school, racial/ethnic makeup, and number of ELL students. 
The majority of the students were in low socioeconomic status (SES) 
schools with at least half of their students eligible for free/reduced-
price lunch.
    A baseline and follow-up prompt were administered to measure 
students' writing progress over the year. The baseline measure was 
administered during fall 1999, and the follow-up measure was 
administered in spring 2000. Each of the two prompts used in this study 
asked students to write a persuasive letter to someone they knew. Their 
writing was scored by teachers trained in applying scoring guides, or 
``rubrics,'' based on two separate aspects of writing: rhetorical 
effectiveness and writing conventions. The rhetorical effectiveness 
score addresses content, organization and style of a piece of writing. 
The conventions score addresses student mastery of the conventions of 
written English--of usage, mechanics and spelling. The scoring rubrics 
are included in the appendix. Before the papers were scored, all 
identifying information was removed. Readers were not told which paper 
was from the baseline and which was from the follow-up administration.
    The three major findings from an analysis of the student writing 
are:
    (1) Almost all fourth graders (96 percent) and most third graders 
(85 percent) reached adequate or strong achievement for rhetorical 
effectiveness on their writing prompt by follow-up. Most fourth graders 
(82 percent) and two-thirds of third graders (66 percent) demonstrated 
general or strong control of the writing conventions of usage, 
mechanics and spelling.
    (2) Third- and fourth-grade scores showed statistically significant 
increases from baseline to follow-up for both rhetorical effectiveness 
and writing conventions.\1\
---------------------------------------------------------------------------
    \1\ (p<.001).
---------------------------------------------------------------------------
    (3) Although there were some differences in achievement between 
sub-groups, these findings hold true for students from diverse racial 
and ethnic backgrounds, English language learners, students from 
schools with high percentages of free-lunch eligible students, and 
males and females.
    Overall, these findings show that students in classrooms taught by 
NWP teachers made significant progress over the course of the school 
year in rhetorical effectiveness and applying writing conventions in 
persuasive writing. By the end of the school year, a majority of 
students in the study reached adequate or strong achievement in 
rhetorical effectiveness and demonstrated general or clear control over 
the conventions of usage, mechanics and spelling.
                              INTRODUCTION
    The National Writing Project (NWP) is a nationwide professional 
development network that began in 1974. The mission of the project is 
to improve the teaching of writing across the curriculum in the 
nation's schools. Currently serving 168 local sites across the country, 
NWP is a ``teachers-teaching-teachers'' model of professional 
development. This model of professional development acknowledges the 
primary importance of teacher knowledge, expertise and leadership. 
Through NWP, experienced teachers attend invitational summer institutes 
at their local writing project sites to examine the theory and practice 
of the teaching of writing, learn in a community of K-university 
teachers, conduct research, and develop their own writing. During the 
school year, these teachers provide professional development workshops 
for other teachers in their schools and communities. In addition, 
writing project sites provide a range of other supports for teachers 
and schools, including inservice workshops, teacher research groups, 
new teacher support, writing and reading conferences, and parent 
workshops.\2\
---------------------------------------------------------------------------
    \2\ For additional information on NWP, see the following sources: 
National Writing Project (2000). National Writing Project 1999 Annual 
Report, Berkeley, CA: Author; Smith, Mary Ann (2000). A Marriage That 
Worked: The Department of Defense Dependents Schools and the National 
Writing Project. Phi Delta Kappan, V81, N8, pp 622-26; National Writing 
Project (undated). Essentials of the NWP Model, internal document, 
Berkeley, CA:Author; and St. John, Mark (1999). The National Writing 
Project Model: A five-year retrospective on findings from the Annual 
Site Survey. Berkeley, CA: Inverness Research Associates.
---------------------------------------------------------------------------
    In 1999, NWP commissioned the Academy for Educational Development 
(AED) to conduct a three-year national evaluation of the project. The 
goal of the evaluation is to collect data on how student writing is 
developed in classrooms, the conditions that support student 
achievement in writing, and the outcomes for students in NWP 
classrooms. To address these, AED collected several pieces of data from 
24 different third-and-fourth grade writing project classrooms located 
around the country in 1999 and 2000. The data collected included (1) 
student responses to timed writing prompts administered in the fall and 
spring; (2) two teacher assignments from each classroom; (3) student 
work corresponding to each of the teacher assignments; (4) written 
surveys and telephone interviews with every participating teacher; and 
(5) extant data on the schools, districts, and communities within which 
schools were located. The first year of the evaluation was considered a 
pilot year to test the feasibility of the evaluation design and the 
validity and reliability of the writing prompts and scoring rubrics 
adapted and created for this study.
    This report presents findings from the student responses to timed 
writing prompts administered during the first year of the evaluation in 
the fall (baseline) and spring (follow-up) of the 1999-2000 school 
year. Findings from other data collected for this study will be 
presented in subsequent reports. The report is organized in three 
sections: study participants, methodology and results.

           *       *       *       *       *       *       *


    [Clerk's Note.--The full text of the report: ``National 
Writing Project Evaluation, Student Writing Achievement, Year 
One Results'' will be retained in the Subcommittee files.]
                                ------                                

    [Clerk's Note.--The report: ``National Writing Project 
Annual Report 2000'' can be found on Web: http://
www.writingproject.org]
                                ------                                


                                      State of Mississippi,
                                        Jackson, MI, April 9, 2001.
Senator Thad Cochran,
Russell Senate Office Building, Washington DC.
    Dear Senator Cochran: Mississippi's National Writing Project is an 
important program that is a fine example of the effective blending of 
federal and state funds. I am writing to give my support for its 
continued operation through the Mississippi Writing/Thinking Institute 
at Mississippi State University.
    Through the Institute, teachers learn how to become better teachers 
and students learn to be better writers. Each summer, some of our 
master teachers get the opportunity to hone their own writing skills 
and publish their work for national audiences. Quality student writing 
is also a primary focus. Teachers conduct research and study ways to 
help our students become more effective writers.
    The National Writing Project in Mississippi is a premiere provider 
of high quality professional development. Each year 4-5,000 of our 
teachers take part in workshops that last throughout the school year. 
One of our participating teachers wrote, ``The NAT has made a 
difference in the way I teach, and the way I teach has made a 
difference in the way my students write and learn.'' Frankly, that 
speaks volumes.
    I am convinced that Mississippi and America are getting their 
money's worth from NWP. Clearly, our state is renowned for her writers. 
The NWP is playing a key role in helping develop our next generation. I 
hope you will continue to provide your substantial influence in 
Washington so that we will continue to benefit from this program. I 
appreciate all you do for our state.
            Sincerely yours,
                                                  Amy Tuck,
                                               Lieutenant Governor.
                                 ______
                                 
          Prepared Statement of State Senator Alice V. Harden
    As Chair of the Senate Education Committee, former teacher and 
advocate for teachers, I have made it a point to experience first-hand 
the programs of organizations that claim to support teachers in 
Mississippi. One such organization is the National Writing Project, 
represented in our state by the Mississippi Writing/Thinking Institute. 
In January 2000, I accepted an invitation to join more than 60 teachers 
of the Institute for a three-day strategic planning retreat. There I 
learned that the National Writing Project focuses on improving student 
writing and on high quality professional development for teachers. I 
learned that the National Writing Project was the first educational 
organization to profess that the ``best teacher of teachers is another 
teacher,'' that ``teachers of writing must write,'' and that 
``universities and public schools must collaborate to bring the best 
practice and research to classroom teachers across the nation.'' I 
worked alongside teachers who were planning a year-long professional 
development program that would ultimately improve student writing and 
the teaching of writing across our state. I embraced the efforts and 
expertise of these master teachers who carried the banner of the 
National Writing Project for Mississippi. Later I was able to enact 
legislation to see that state funds for this valuable program were made 
available.
    I have not been disappointed. The National Writing Project--or the 
Mississippi Writing/Thinking Institute--continues to achieve an 
aggressive agenda for teachers in our state. Teachers associated with 
the NWP in Mississippi write and publish. They conduct an amazing 
amount of professional development--over 100,000 contact hours last 
year. They conduct research on student writing, parent involvement, and 
staff development. They pass the National Board for Professional 
Teaching Standards at an impressive rate--77 percent for National 
Writing Project teachers as opposed to 47 percent for teachers not 
involved with the NWP.
    The National Writing Project is vital to the continued success of 
Mississippi teachers. Our state depends on the NWP sites in Mississippi 
for the most current research-base on the teaching of writing. Our 
state depends on the NWP sites in Mississippi for the most intensive 
and effective professional development for our teachers.
    Research conducted in Mississippi schools suggests that NWP 
programs focusing on writing to learn reading and math skills are also 
effective. Studies conducted in West Point and in Kemper County show 
that student achievement and district accreditation rose after 
intensive work with the Mississippi network of NWP sites.
    Our state depends on the NWP sites in Mississippi for ongoing 
collaboration in the long saga toward competence in teaching and 
learning.
                                 ______
                                 
  Prepared Statement of Kim Patterson, Co-Director, Mississippi State 
                  University Writing/Thinking Project
    I am Kim Patterson, a middle school teacher, currently serving as 
Co-Director of the Mississippi State University Writing/Thinking 
Project. It gives me great pleasure to share with you the impact and 
influence of the National Writing Project and its Mississippi 
affiliate, the Mississippi Writing/Thinking Institute, on the teachers 
of the great state of Mississippi and our nation. In this testimony I 
will share what Institute professional development looks like at Second 
Street Elementary School in Bay St. Louis, Mississippi and share the 
significance of a national research study involving Mississippi 
teachers.
    Professional development designed and delivered by the teacher 
consultants of the Mississippi Writing/Thinking Institute is about 
building local expertise and honoring teachers' knowledge. Teacher 
consultants of the Mississippi Writing/Thinking Institute never propose 
to ``fix'' teachers or problems inherent in teaching. Rather, when 
working with teachers in schools, teacher consultants draw from and 
build upon the expertise of the teachers in the group. For example, I 
have had the pleasure of working with a group of 4th and 5th grade 
teachers at Second Street Elementary School in Bay St. Louis, MS. 
Through the school's leadership team, teachers in this school voiced a 
desire to integrate writing into all parts of the curriculum. The 
starting place for our work then was to identify those best practices 
related to writing-to-learn that were already in place in the 
classrooms. Throughout this school year, our work together has been to 
build upon those best practices already in place to deepen and 
strengthen the instructional practices of the teachers.
    The first part of each monthly workshop session is spent hearing 
teachers tell how they've implemented strategies shared in a previous 
session. Each time the teachers have expanded and adapted the 
strategies to make them their own and make them work for their students 
in their individual classrooms. Teachers at Second Street Elementary 
have also been involved in classroom demonstrations of effective 
practice. During these classroom demonstrations, a small group of 
teachers observe and participate in the lesson. After the 
demonstration, we meet as a small group to debrief the lesson and 
reflect on its significance. Teachers also make plans during this 
debriefing session for adapting the lesson to their own classrooms. 
Another component of the professional development at Second Street 
Elementary is study group meetings. During these small group sessions, 
teachers read research related to teaching writing and plan lessons for 
their classrooms based on the research. They also study student samples 
to diagnose and prescribe instruction based on the strengths and needs 
of individual students. During these study groups, teachers also 
examine rubrics, score student papers, and develop rubrics for their 
own classroom use. They also design instructional strategies for 
helping students use rubrics and checklists to improve their work.
    It is this building of expertise, I think, that distinguishes 
Writing/Thinking Institute from many canned programs designed to 
``fix'' what is wrong with teachers. These teachers at Second St. 
Elementary have spent considerable time examining their own practice, 
thinking about what works and why, and designing instruction themselves 
to ``fix'' the gaps they recognize in their own teaching. My prediction 
is that these teachers will engage in these sorts of analyses and 
reflections long after some other ``programs'' or mandates have run 
their course.
    The Mississippi Writing/Thinking Institute, through its affiliation 
with the National Writing Project, showcases effective teachers and 
teaching from Mississippi classrooms. Currently, six 3rd and 4th grade 
classroom teachers from Mississippi are involved in a national research 
project sponsored by the National Writing Project and conducted by the 
Academy for Educational Development (AED). This study involving the 
Mississippi State University Writing/Thinking Project, along with three 
other National Writing Project sites from UCLA, Philadelphia, Oklahoma 
and Kentucky, was designed to evaluate the quality of writing 
assignments given by Writing Project teachers and student outcomes in 
writing.
    During each year of this three-year project, teachers administer a 
persuasive writing prompt in the fall and a similar persuasive prompt 
in the spring. Data from year one of the study shows that 57 percent of 
the students in Mississippi increased their rhetorical effectiveness 
scores from the baseline prompt to the follow-up prompt. Fifty-one 
percent of the students increased their score for writing conventions 
from the baseline to the follow-up prompt.
    An additional component of this study is the scoring of teachers' 
assignments and the corresponding student work related to those 
assignments. Each year of the study, the teachers submit two writing 
assignments given to their students and the corresponding student work 
from those assignments. Along with the assignment, teachers submit an 
in-depth description of how the writing assignment fits into the larger 
context of their classroom or unit of study. The teachers' assignments 
are scored using three criteria--construction of knowledge, learning 
concepts in the content areas, and connection to students' lives. The 
corresponding student work is scored using the same three criteria with 
an additional criteria related to using conventions of language. Even 
though the study is not designed for comparison among sites involved in 
the study, preliminary data shows that Mississippi teachers scored 
highest on the Construction of Knowledge criteria when compared with 
the other three sites involved in year one of the study.
    At the beginning of the study, the teachers attended an orientation 
meeting in Berkeley, California, to help design the writing prompts 
issued to students in the fall and spring. Teachers also reviewed and 
discussed the rubrics that would be used to score the students' 
responses to the writing prompt. Before this weekend session was over 
the teachers from Mississippi were already talking about how they could 
use the materials and experiences from the meeting to enhance their own 
teaching. They were discussing ways to help their students improve 
persuasive writing, a genre tested in Mississippi at grades four and 
seven. They were also discussing their own teaching and how their 
assignments and units might compare to the criteria used to score their 
teaching assignments. The richness of these professional discussions 
continued throughout the school year as the teachers met regularly to 
study the guidelines and rubrics for scoring the teacher assignments 
and student work. Near the end of the school year one teacher said, 
``This is one of the best things I've ever done in my classroom. This 
has been such a growth experience for me and my students. I know I'll 
be a better teacher because of this.''
    Preliminary results from year one, gathered from a discussion with 
Kari Nelsestuen from AED, indicate that teachers involved with the 
National Writing Project use writing in a variety of ways in their 
classrooms. One teacher reported, ``We try to include writing in 
everything that we do. We do research when we're in science and social 
studies (we don't just read and answer questions). I try to tie things 
together as much as possible so subjects link together.'' The results 
also show that teachers credit the Writing Project for changing their 
teaching practice in a positive way. One teacher said, ``I don't teach 
the same way I used to. It [Writing Project] has changed my whole 
style. I used to know things weren't right, but I didn't know why or 
what to change. I was so sold on things at the Summer Institute, it 
changed everything.''
    In June 2000, a second team of Mississippi teachers joined teachers 
from Oklahoma, California and Philadelphia to score the student writing 
prompts from the fall and spring as well as the teachers' assignments 
and student work submitted from each teacher involved in the study. 
This week-long conference included a study of the rubrics that were 
used, scoring and discussion of anchor papers, and the actual scoring 
of the work included in the study. The value of the scoring conference 
could be summed up with these words from one of the teachers involved, 
``We need to get all teachers looking at student work and using these 
findings to make decisions about their next steps. How can we make it 
part of the school culture?''
    The value to Mississippi teachers because of our involvement in 
this study is far-reaching. A number of teacher consultants regularly 
use the criteria for scoring teachers' assignments with groups of 
teachers in staff development. During these sessions, teachers are 
given an opportunity to examine their own teaching and see how it 
compares to these criteria. This examination and comparison stimulates 
discussion related to how we encourage students to engage in authentic 
intellectual work in our classrooms. Teachers who attended the scoring 
conference have brought back ideas and materials that they have shared 
in staff development with other teachers, at their own schools with 
colleagues, and at state conferences and meetings.
    The National Writing Project in Mississippi positively impacts 
teachers both locally and nationally. At Second Street Elementary 
School in Bay St. Louis teachers are already planning for next year's 
professional development workshops. Recently, one teacher said, ``I 
hope we continue these workshops next year. I leave each session with 
ideas I can really use in my classroom. I feel more prepared to help my 
students be better writers because of these workshops.'' Teachers 
involved in the NWP/AED study, those submitting teacher assignments and 
student work and those participating as scorers, continue to share 
their excitement at the possibilities this study holds for them and 
their students. The National Writing Project is vital for both teachers 
and students in Mississippi and across the nation. I urge the Senate to 
support the reauthorization of the National Writing Project in the 
current ESEA bill.
                                 ______
                                 
                  Prepared Statement of Linda Buchanan
    My experience with the Writing Project has influenced my teaching 
career in many areas. I shall speak of Writing Project work in relation 
to receiving National Board Certification, because that is a nationally 
accepted benchmark that educators around the nation identify with. 
Since my scores ranged between 3 and 4 in all areas, I feel I can speak 
to the relevance of Writing Project participation in developing quality 
teaching professionals.
    Looking over the requirements for the National Board entries, I 
quickly realized that my work with the Writing Project had prepared me 
well. There were many things I could write about as a part of my 
Professional entry because of my association with the Writing Project. 
I have completed action research projects in my media center in 
collaboration with another teacher, and then presented the findings at 
state and national meetings. One project focused on the improvement of 
reading strategies using books of choice from the library and the other 
on children's research and synthesizing of information. A peer and I 
led a group of teachers in the development of performance assessment/
instruction materials used throughout our state to improve 
instructional strategies, student engagement with tasks, teachers' 
ability to analyze student work to plan further instruction, and test 
scores. Reading extensively and leading other teachers to professional 
reading through reading workshops has given me numerous and varied 
strategies that improved learning for children. Numerous projects have 
led me to investigate national standards in language arts, math, 
science and social studies. The Writing Project facilitated all of 
these.
    When I studied the National Board entry that focused on creating a 
Community of Learners in the Classroom, I knew that I had learned 
appropriate strategies in Writing Project sessions. In fact, I had 
implemented them and had been teaching other teachers to do this for 
quite some time. National Boards requirements caused me to adjust and 
add to my methods, but I had the basic philosophy: the need for 
community building, developing student responsibility, inclusion of all 
group members in the task, and respect/appreciation for the talents and 
diversity of all. My entry focused on writing response groups and how 
children help one another to improve their writing. Children did 
improve their writing, but the main growth area was in their ability to 
accept suggestions from group members, as well as to appreciate, work 
with, and help others.
    I looked forward to the Writing/Social Studies entry because I knew 
the Writing Project had prepared me well to teach and assess process 
writing as well as writing to learn. This entry was an absolute delight 
to prepare because it encompassed so many of the skills and strategies 
I had implemented through contact with Writing Project teachers. My 
children wrote to learn in Social Studies and also wrote a fictional 
narrative. They loved putting their thoughts on paper and improving 
their work for publication. They loved putting their cooperative group 
skills to work as they responded to the writing of others. I loved 
working with children eager to learn new strategies for improving the 
way they put their own thoughts on paper. The children learned new 
skills quickly and easily, as they needed them for their writing. For 
example, I taught one child how to use paragraphing to show when the 
speaker changed in dialogue. She became the expert and taught all the 
others this new skill.
    Math was also an easy entry for me because it was based on NCTM 
standards. I had become thoroughly familiar with these standards as I 
wrote the performance assessment materials mentioned earlier. As with 
all writing project strategies, the children were engaged, and the 
learning was hands on and joyful. That is one of the greatest lessons I 
have gained from association with the Writing Project: engaged students 
learn more and discipline problems are minimized, meaningful tasks 
facilitate learning, and learning time is should be joyful for students 
and teacher. The lesson I chose involved measurement, but, true to 
Writing Project philosophy, we learned it in a real world context. The 
children needed measuring skills in order to measure paper, ribbon, 
etc. to cover and decorate a box to hold their Valentine's cards.
    My Science entry was made easy because of my association with a 
Writing Project teacher who had trained at the Lawrence Hall of Science 
in Berkley. I had learned many of the strategies employed in the 
National Science Standards and used them for quite some time. Once you 
see these strategies and see how wonderfully the children respond and 
learn from them, you want to use them over and over and then learn new 
ones. I began with the strategies I had learned from my Writing Project 
friend for my National Board entry, but quickly ordered other units 
from the Lawrence Hall of Science. Now my entire school has adopted 
several units to teach at each grade level. That is the true beauty of 
the Writing Project-good ideas and strategies are shared with peers.
    My favorite part of National Boards was the timed computer test we 
took the following summer. When I looked at the Reading question, it 
was like coming home. I had to analyze the strengths and weakness of 
one child and develop a program of remediation using teaching 
strategies based on the child's strengths to improve weak areas. I was 
able to choose from all the strategies I had learned or helped to 
develop through my writing project activities. I received a score of 4. 
I think that says a lot for the work that the Writing Project has done.
                                 ______
                                 
                 Prepared Statement of Jeanne R. Ezell
    Because I was a participant in the South Mississippi Writing 
Project's 1987 Summer Institute, I know firsthand the power of a Summer 
Institute. As director of this National Writing Project site since 
1988, I have also observed about two hundred other teachers experience 
that power. But trying to explain the transformation Writing Project 
brings to some teachers' lives is like trying to explain a religious 
conversion or childbirth to someone who has not had the experience. 
Teachers' stories seem the best way to try to capture the unique 
quality of a Writing Project, so I want to share the words of several 
South Mississippi Writing Project teachers with you.

    ``I have learned something wonderful about myself: I CAN WRITE!!! I 
have become a better writer in this Project, and in turn I feel I will 
be a better classroom teacher. I have learned how to word process on a 
computer and have been exposed to a whole new approach to the teaching 
of writing. I was never an A student in my college English courses 
because I am a poor speller, but I have found this wonderful device 
called a Spell Checker, and now I can examine my content.''

    Dottie Glanders' discoveries were made during the South Mississippi 
Writing Project's 1987 Summer Institute, where she had arrived the 
first day clutching a dictionary and a handbook. I am amazed at her 
courage in leaving her two young children at home and driving sixty 
miles each morning and afternoon just to face the thing she feared 
most: writing. Somehow, her desire to help her fourth-grade students 
become writers had outweighed her own insecurity as a writer. Before 
her husband's transfer took her to California, Dottie continued to 
write and to present at staff development workshops the demonstration 
lesson she developed during the Summer Institute.

          * * * * * * *
    ``I had not wanted to give up my summer of fun in the sun . . . 
playing, visiting, and resting . . . getting ready for another year of 
school. I didn't know that the rejuvenation would come from a renewed 
spirit and energy with a determination to try the methods I had 
witnessed in the Writing Project. I didn't know how creative and open 
the other participants would be or how inspired the five weeks would 
leave me feeling. I didn't know I'd be ready to begin teaching children 
before we had even finished our ten weeks of summer vacation.''

    Jean Sauls, a veteran fourth-grade teacher and the author of two 
books of poetry, came to the South Mississippi Writing Project's 1989 
Summer Institute because a friend wouldn't let her say no. I am amazed 
that she made what she saw as a sacrifice, giving up her summer of 
rest, to attend an intensive five-week workshop.
    Jean has led a number of staff development workshops and rarely 
misses a meeting or writing retreat. She continues to think about her 
teaching and is now working on classroom research projects to better 
understand what works in her classroom and to share her findings with 
other teachers. She also sings the Writing Project's praises to her 
fellow teachers and to her school district administrators, as well as 
to undergraduate elementary education majors in the methods classes she 
visits most semesters.
          * * * * * * *
    ``This is revival time, and I feel as though I'm rededicating my 
life (or my life's calling at least). The enthusiasm of this community 
of growth is contagious. As we read and discuss and write and respond, 
we are living models of what we want our students to do and be. We have 
gained empathy for their struggles and insight into their thinking.''

    Lesa Gibson, who attended a Summer Institute in 1988 and again in 
1992, echoes the born-again vocabulary often heard from Writing Project 
teachers. A high-school English teacher, after her first summer 
institute, she had written her ``confessions of a former worksheet 
queen'':

    ``For seven years now I have battled the `Teach 'em grammar' 
concept in my mind, never really being able to justify its usefulness, 
its value, or its positive effect on writing skills . . . Maybe that 
idea works in basketball, but not in grammar. Persistent drill of 
isolated grammar skills has accomplished nothing in my classroom--
except maybe a migraine headache and endless frustration for me and 
constant complaints and intense boredom for my students. And then I 
attended the South Mississippi Writing Project. I now recognize that 
teaching writing in my classroom is not even an option--it is an 
obligation.''

    With three young sons now, Lesa has left full-time high school 
teaching for the time being, but she continues to be active 
professionally through part-time teaching at a local college, through 
state conference presentations, and through being a popular staff 
development presenter and coordinator for the South Mississippi Writing 
Project. I marvel at the time a busy young mother is willing to give to 
her profession.
          * * * * * * *
    ``I do know that children need and want to write and that they 
become better writers by writing. They also deserve a teacher who can 
share the process of writing with them. I want to participate in the 
Writing Project to improve my writing skills and to become confident 
enough to provide my students the encouragement and support they need 
to enjoy writing.''

    With twenty-six years of elementary school teaching experience, 
Mary Kay Deen had much to offer the Writing Project when she attended 
the 1991 Summer Institute. By the end of the Summer Institute, Mary Kay 
also felt she had gained much. In a chapter she contributed to a 
National Writing Project publication, Teachers' Voices: Portfolios in 
the Classroom, Mary Kay wrote about those gains:

    ``I graduated from college, taught school, and even entered a 
graduate program, conditionally, of course, due to my low test scores. 
Rather than advance through the maze of academia, I have involved 
myself in independent study, conference participation, and classroom 
research as vehicles for professional growth. For me school was no safe 
harbor until the summer of 1991, when I met some teachers in the South 
Mississippi Writing Project who discovered under those layers of test 
`cannots' my fern fronds, teacakes birds, and stories.''

    Mary Kay has been active as a presenter and coordinator of staff 
development workshops for the South Mississippi Writing Project, as 
well as a leader of portfolio workshops and Mississippi Assessment 
Training workshops for the statewide network of Writing Projects. She 
has often presented at state and regional workshops and in 1994 
presented at an international conference in Great Britain. Also in 
1994, Mary Kay was inducted into the Mississippi Hall of Master 
Teachers. I respect Mary Kay's energy and intellectual vigor in 
continuing to learn and contribute to her profession.
          * * * * * * *
    ``What I will do differently, as a result of the knowledge I've 
gained from articles, discussions, and sharing our stories during the 
Summer Institute, is push my children to accept more responsibility for 
their learning through peer conferencing, peer editing, and other 
strategies. This year, I won't throw up my hands and yell, `That's all 
right! I'll edit it!' I will force myself to be the `facilitator' that 
I know I should and can be. And now, at the close of this inspiring 
journey, what have I finally confirmed? I have confirmed that others 
feel as I do, that in my concerns I am not alone. No, I am indeed not 
alone.''

    Nadene Dunlap-Arrington returned to her native Mississippi after 
working as an editor for a university press and a publisher. She 
received alternate-route certification and works with at-risk children. 
I am awed by the enormity of her job and the thoughtfulness with which 
she goes about it. Young teachers like her hold the future for all 
Mississippians.
          * * * * * * *
    ``My classroom was never to be the same after the South Mississippi 
Writing Project. I now truly understood--through my own intimate 
experiences--and encouraged the process: the time, the support, the 
community, the safe environment, and the reflection whereby every 
student and their teacher could engage in the adventure of using the 
written word. I also discovered a network of Writing Project fellows 
who share philosophy and possibilities for our educational system. 
Because of the encouragement of Bette Ford, Co-Director of the South 
Mississippi Writing Project, I attended the Bread Loaf School of 
English, so much like the Writing Project. Then, again through the 
Writing Project, I became involved in providing workshops for teachers 
throughout the state on the Mississippi Assessment System. When I 
undertook the challenge of the National Board for Professional Teaching 
Standard's first area for certification in the fall of 1993, I realized 
how prepared I was to fulfill the stringent expectations: a process of 
portfolio, hours of writing, interdisciplinary analysis and reflection, 
visual artifacts with written and spoken documentation, and 
collaboration. I thank the South Mississippi Writing Project for 
grounding me and giving me wings. The ripple effect continues . . .''

    Penny Wallin's comments during a 1994 State Board of Education 
meeting during which she and another teacher were honored as the first 
two Mississippi teachers to receive certification from the National 
Board for Professional Teaching Standards are a powerful testimony to 
the far-reaching effects of a Writing Project summer. Since 1994 a 
total of fifteen South Mississippi Writing Project teachers have 
received National Board certification. In Mississippi, where about 40 
percent of teachers who attempt this process complete it successfully, 
over 75 percent of teachers affiliated with one of the state's eight 
NWP sites receive National Board certification when they attempt it. 
These board-certified teachers speak of the role the writing and 
reflection they did during Writing Project summer institutes played in 
preparing them for the rigorous application process, not only directly 
through professional reading and writing but also indirectly though 
offering further opportunities for professional involvement.
    In addition to achieving National Board certification, many South 
Mississippi Writing Project teachers have received national 
recognition. Two teachers, Jacqueline Rogers and Lois Rodgers received 
Christa McAuliffe grants during the brief lifetime of that program; 
Jacqueline Rogers was also chosen as a Disney teacher. Both Senita 
Walker and Sharon Ladner received Milken Awards. Numerous other 
teachers have been recognized as school or district teachers of the 
year. Many South Mississippi Writing Project teachers have served on 
state and regional committees, as officers of state and national 
organizations. It is no coincidence that many Writing Project teachers 
receive awards and recognition. Outstanding teachers apply and are 
chosen to participate in summer institutes. In fact, they create the 
Writing Project. That is the magic of the National Writing Project: It 
empowers teachers to recognize that they are authorities in their own 
classrooms and within their profession. Those teachers, in turn, 
empower their students and, in doing so, become and help develop 
lifelong learners.
                                 ______
                                 
                  Prepared Statement of John W. Dorroh
    I began my teaching career in January, 1976, as a replacement for a 
teacher who moved mid-year, leaving half of her biology students with 
failing grades. At that time, it became my job to try to help those 
students pull up their grades and to decide, ultimately, who should 
pass and who should fail. It was quite a challenge with many obstacles. 
That first year became a metaphor for life: obstacles/opportunities, 
search for solutions, applications/testing hypotheses, reflection/
recovery, repeat the cycle.
    I was beginning to suffer from ``burn-out'' when I became involved 
with the Mississippi Writing/Thinking Institute in July, 1988. I was 
invited to attend a five-day workshop, featuring a retired science 
teacher, Bob Tierney, who had begun using writing in his science 
classes in his Bay area school in Fremont , California in the early 
80's. The methodology that I began to absorb in those five days 
literally transformed my classroom and how I viewed the entire 
profession. Without my involvement with the Writing Project, I most 
assuredly would have left the profession, or turned into a ``truly 
rotten teacher,'' ineffective and not fit to be in a science classroom.
    I cannot begin to tell you all of the details of how my life and 
classroom changed in this short testimony but I can certainly give you 
some highlights. Remember, I attribute all of these changes to the 
Mississippi Writing/Thinking Project, my local site for the National 
Writing Project. These highlights include (1) changing from a teacher-
dominated classroom to a student-centered one; (2) moving away from 
``kill-and-drill'' worksheets to activities and projects that helped my 
students learn how to process information and ultimately how to think; 
(3) incorporating more writing, both informal and formal; (4) 
incorporating more reading; (5) developing and incorporating student 
portfolios which helped my students to re-shape their stereotyped 
negative images of scientists as ``nerds''; (6) students and myself 
becoming more reflective, asking why and how we had learned a 
particular lesson and asking how we could improve subsequent lessons; 
(7) including more original open-ended labs rather than ``canned'' 
recipe-type labs from a workbook; (8) and learning more about 
accountability and responsibility. I'm almost sure that I have left out 
a couple.
    After looking at that list, I am wondering WHY these hearings are 
going on. The National Writing Project and its Teacher/Consultants have 
proven over and over, year after year, what their work means to the 
children and teachers of this country. WHY is there even a second 
thought about cutting the budget for an umbrella of services that does 
so much good in our country of ``sick and ailing'' schools? I don't 
understand it, I honestly don't. This is another obstacle/opportunity 
for the TC's to amplify our message.
    The Mississippi Writing/Thinking Institute helped my own school 
district, the West Point Schools, raise its performance rating in one 
year from a sub-standard 2 to a 3. The Mississippi Writing/Thinking 
Institute and the staff at Berkeley, California, at National Writing 
Project headquarters, helped me to gain enough confidence in my own 
writing to have had at least 15 articles and chapters published in 
books! In short, the Writing Project SAVED MY PROFESSIONAL LIFE! (Plus, 
I achieved National Board Certification, using the methodology I 
learned since 1988.)
    For the last 12 years I have grown professionally and see no end to 
that growth. I can say the same for other T/C's, such as Bob Tierney, 
who reminds me several times a year that without his involvement with 
the NWP, he, too, would have burned out and probably left the 
profession. Why try to cut the budget of such an effective 
organization? Why not cut some organization which offers no proof of 
effectiveness?
    I beg of you, I plead . . . PLEASE SUPPORT THE NATIONAL WRITING 
PROJECT and its sites across the country by not cutting the budget. 
Support us in any other ways that you can. Final comment: Think of your 
own children or grandchildren for a moment. What kind of classroom do 
you want them in--a drab, work-sheet filled room with an ineffective 
teacher who does most of the thinking for the students, one where there 
is little writing and where the students appear lifeless, bored, and 
totally uninterested . . . or one where the teacher facilitates the 
learning, helps the students to use their brain and to develop their 
natural talents, where the students seem alive, motivated and 
interested in their learning? It's your choice.
                                 ______
                                 
           Prepared Statement of Katherine Dale Pohl, Parent
    As a parent of a Mississippi public school student, I am writing to 
voice my support for the National Writing Project. The funding and 
continuation of this project in Mississippi directly affects whether my 
family will stay in this state or go back to Huntsville, Alabama. My 
husband and I moved to the Gulf Coast a year ago on a temporary basis 
with our two children, a toddler and a kindergartner. We sought the 
beach, the culture, and the adventure. We left behind friends, family, 
and priority status in an incredible magnet school for the arts in a 
city we loved.
    We took residence in Bay St. Louis entirely because of the 
incredible reputation that elementary school has as a whole arts school 
that is based on National Writing Project philosophies. After one year, 
we have decided to stay indefinitely because we are so in love with 
what is going on at North Bay Elementary, and the National Writing 
Project (as well as incredible and progressive teachers) is responsible 
for it. We want our son in that school (and school system) for first 
and second grade as well. We have actually delayed our plans for moving 
back to Alabama to be sure that our son's crucial formative years will 
be spent in the right environment for learning and growth. Test scores 
matter very little to me. What I as a parent am concerned with is what 
my son can DO with what he is taught. Currently, he is reading, 
writing, and revising his own writing (along with the rest of his class 
of five-year olds). The process used by his teachers, and its evolution 
from the NWP has given him the confidence to write short stories, 
poems, songs and journal entries. It shows up in his work in math, 
science, social skills, art, and all areas of academia and life in the 
way he thinks, solves problems, revises, and challenges himself.
    When my son writes, he spells words just as they sound. He does not 
slow down to correct himself or his spelling while his ideas are 
flowing. That will come later, when the flow begins to dwindle and he 
reads over it, realizing he can make it sound better or print it more 
neatly. As a result, his writing is more honest and less contrived, 
including dialogue, questions for the reader to ponder, and subject 
matter. He is able to write for himself because it pleases him to do so 
and he has a worthwhile reason to write. Because his classroom 
environment has embraced reading, writing, and sharing each others' 
work, his spelling and grammar have naturally begun to fall into place. 
This process has been natural for him, and joyful for us as parents. It 
is a process that has been put into place with NWP teachings. It has 
also made me realize how very unnatural it is to make students hammer 
out the proper spelling and sentence structure from the beginning, 
denying them the chance to make decisions, even mistakes. Teachers need 
support from the education community, including legislators, in order 
to have parents' support in implementing these proven methods.
    My memories of public school include a litany of acronyms for 
programs which came complete with workbooks, angry, frustrated 
teachers, and confused, nervous students. We spent a disproportionate 
amount of time learning procedures for what the state board of 
education expected of us as opposed to actually learning. The trickle-
down effect of the NWP, on the other hand, is pure knowledge, giving 
children the tools, which will never become obsolete, to organize 
thoughts and questions. It is an investment in the actual thinking 
process of students. For example, we have tried several times to teach 
our phone number to our kindergartner. He is perfectly capable of 
memorizing it, but simply had no interest. It was just numbers to him 
and he felt that in an emergency, adult help would be available. It 
simply did not apply to him. Yesterday, he began listing (part of the 
writing process used by NWP). Together, we listed dozens of situations 
in which he might need to know his phone number, responding each time 
with the phone number. ``If a skunk walks up and wants to ask about the 
snail I found, I tell him he smells and just call me from far away. 
When he says `What's your number?' I say 467-6908!'' We continued, 
revising along the way, until we had a rhythmic formula going. We ended 
up with a logical way to learn and a veritable children's book. Later 
that night, he repeated the process with his father, this time 
elaborating and adding details, such as how he found the snail and how 
the skunk knew about it. Because he is urged to be descriptive in 
class, he has become more observant about what he sees, reads, and 
writes, noticing rhymes, patterns, and details. I was thrilled that he 
was writing off the top of his head, and as a bonus, a string of 
numbers (math) has meaning for him now. On the night before a recent 
field trip, he asked if he could take something extra for the trip. I 
expected him to ask for candy in his lunch bag. Instead, he requested a 
tiny journal and pencil that would fit in his pocket.
    One very important facet of learning, which is highlighted by the 
NWP in parent workshops and portfolio reviews, is publication and the 
need for students to have an audience. The children at this school know 
they have something in them worth sharing, and the parents have become 
partners in that experience. Isn't that what Americans are pleading for 
every day in the news? The parent workshops I have attended were 
absolutely cathartic for many of us. Being able to see first hand how 
writing is being introduced and infused into our children in such a 
usable way had comments such as ``Why didn't they teach this way when I 
was in school? I can use this!'' bouncing off the walls as fast as the 
ideas turned into paragraphs. Parents, grandparents, and teachers were 
all eager to share what they had written and how they had arrived at 
it, just as the students, including my son, do everyday. The teachers 
maintain a healthy diet of writing through the NWP workshops, and North 
Bay Elementary has implemented Parent Journals which go home with 
students each night. What a wonderful boost for young writers it must 
be to see their parents writing alongside them, and about them as well!
    I realize that many parents are resistant to change and panic when 
they see a portfolio review instead of a report card as an indication 
of progress. Not only do I have a solid understanding of what my son is 
accomplishing, but so does he, as he is a part of the process as well. 
I feel sure that it is because the teachers are so well supported by 
NWP that things are working at North Bay Elementary. I take pride in 
knowing that his teachers are committed and interested in my son's 
learning. If the teachers are willing to go above and beyond to provide 
quality in the classroom experience which enhances and nurtures the 
limitless, tender young minds of this state, I certainly would expect 
the state to invest in a program that gives them the proper tools and 
motivation. It makes me very sad to think how many children in this 
state are not getting all of this ``good stuff'' in their classrooms 
day in and day out. It makes me furious to think that it might be 
jeopardized for my son and his siblings. The NWP in Bay St. Louis is 
working. It is good for the students, the schools, the state and our 
future. It just does not make sense to suffocate one of the best things 
breathing life into Mississippi's choking public school system.
    If this project loses funding, then the teachers could lose the 
opportunities they now have to meet and pool their resources, receive 
and offer feedback about ways to enhance writing in the classroom, and 
more frighteningly, lose enthusiasm. Without that, the benefits of the 
NWP don't get passed on to the students. When the students lose 
enthusiasm, the parents have little interest in involvement with the 
school. What you are left with is a plain old school, and quite 
frankly, I can find that anywhere. I am sincerely hoping for continued 
funding for the National Writing Project.

    Senator Cochran. I am convinced that this has been a 
successful experience, not only for me and our staff members 
who are here, but also for our appropriations committee to get 
the benefit of comments from those who have been involved in 
the program from the inception, like Dr. Sterling and Dr. 
Swain, and those who support the program, Dr. Biggs, who is 
here, and this panel of witnesses, from your personal 
experiences, as well.
    I also have to thank my Washington office and staff who are 
here, Ann Copland, who is the person who is our Legislative 
Assistant with primary responsibility for education issues in 
my office; Win Ellington, who is here, who helped us with 
arrangements for the hearing; as well as Rachel Spence, who was 
here earlier, and others who have been here, as well; Chris 
Richardson, who has accompanied me here today. We have a very 
dependable, hard working and enthusiastic group of staff 
members who spend a lot of hours working hard to be sure that 
the interests of our State and the people of our country are 
effectively represented in the Senate, and this gives me a 
chance to thank them publicly for that. Mark Laisch, who is a 
member of the staff of our appropriations committee, has come 
down from Washington to be here today and to be helpful to us 
in the preparation for this hearing. We are going on up to 
Jackson later in the week and have a hearing with 
superintendents and administrators at the State and district 
levels on Title 1, which is another program that is funded by 
the Federal Government that is very important to the State of 
Mississippi. And we will be looking at ways to learn more about 
how that program can be helpful to Mississippi.
    Let me also say, just as a matter of--I do not want to 
embarrass him at all, but Brother Donnan, who is President of 
Saint Stanislaus, is here in the audience today, and a former 
principal of Catholic High in Baton Rouge and my cousin, 
incidentally, and I am very proud of that, my mother's first 
cousin. So I am glad to see him. But here in Bay St. Louis, he 
is available to you for advice and counsel, which may be 
helpful.

                         CONCLUSION OF HEARING

    That concludes our hearing. And again, let me thank all of 
you who have participated. We appreciate your participation and 
your assistance very, very much.
    [Whereupon, at 3:35 p.m., Tuesday, April 17, the hearing 
was concluded and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 
</pre></body></html>
